                Office of
United States
Department of
Agriculture

Office of
Inspector
General         Inspector General
No. 52

February 2005
                Semiannual Report
                             Re
                             Re
                to Congress
                          ss
                           s
                FY 2004–Second
                           ond Half
                                alf
                                alf
On the cover: The photo of the American flag on the cover was taken on September 11, 2002, during a ceremony at
U.S. Department of Agriculture (USDA) headquarters in Washington, D.C., to commemorate the 1-year anniversary
of the events of September 11, 2001. Office of Inspector General (OIG) photo by Bill Stover.




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, sex, religion, age, disability, political beliefs, sexual orientation, and marital or family status. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice or TDD). USDA is an equal opportunity provider and employer.
i
ii
Outlook for OIG


OIG’S MISSION                                                     With such a broad spectrum of work and limited audit
                                                                  and investigative resources, OIG commits its resources
The Office of Inspector General (OIG) assists the U.S.            to audits, investigations, and evaluations likely to have
Department of Agriculture (USDA) by promoting                     the greatest positive impact. Auditors work to ensure
effectiveness and integrity in the hundreds of programs           programs and operations are administered properly and
of the Department. These programs encompass a broad               protect the public, the agricultural sector, and USDA
spectrum, involving such areas as consumer protection,            funds and assets. Special agents investigate significant
nutrition, animal and plant health, agricultural                  criminal activities involving programs, operations, and
production, agricultural product inspection and                   personnel. All efforts focus on promoting meaningful
marketing, rural development, research, conservation,             change and providing a worthy return on the taxpayers’
and forestry. They impact our citizens, our communities,          investment.
and our economy.

USDA
• administers approximately 300 programs and billions
                                                                  OIG’S PROGRAM DIRECTION
  of dollars in grants, loans, and direct benefits.               To ensure OIG’s resources were directed at the most
                                                                  significant work during this reporting period, OIG’s audit
• is responsible for the safety of meat, poultry, and egg
                                                                  and investigative program was focused to achieve three
  products, eaten by millions of Americans each day.
                                                                  broad strategic goals:
• leads the Federal anti-hunger effort with the Food
  Stamp Program (FSP); Special Supplemental                       1. Support USDA in the enhancement of safety and
  Nutrition Program for Women, Infants, and Children                 security measures to protect USDA and agricultural
  (WIC); National School Lunch Program (NSLP); and                   resources and in related public health concerns.
  other feeding programs. These programs help tens of
                                                                  2. Reduce program vulnerabilities and enhance
  millions of people each day.
                                                                     integrity in the delivery of benefits to individuals.
• leads the effort to prevent the introduction and
                                                                  3. Increase the efficiency and effectiveness with which
  spread of agricultural diseases and pests, and to
                                                                     USDA manages and employs public assets and
  eliminate or control them when they are found.
                                                                     resources, including physical and information
• is the steward of our Nation’s 192 million acres of                resources.
  national forests and rangelands.
                                                                  The work in each of these areas was categorized by
• is also the country’s largest conservation agency,
                                                                  importance, and the percentages of work in the critical
  encouraging voluntary efforts to protect soil, water,
                                                                  and high impact categories were tracked, as were the
  and wildlife on the 70 percent of America’s lands that
                                                                  percentages of audits and investigations that achieved
  are in private hands (the Nation contains 1.6 billion
                                                                  results. An integral part of this program was the
  acres of private and other non-Federal land).
                                                                  identification of USDA programs and operations that
• brings housing, modern telecommunications, and                  were particularly vulnerable and posed significant risks,
  safe drinking water to rural America, which numbers             or what we refer to as “management challenges.”
  60 million inhabitants.
                                                                  We are reporting OIG’s audit and investigative
• is a research leader in everything from human
                                                                  accomplishments for fiscal year (FY) 2004 against our
  nutrition to new crop technologies that allow us to
                                                                  three strategic business goals. Because our new results
  grow more food and fiber using less water and
                                                                  measurements system was put in place at the beginning
  pesticides.
                                                                  of this Semiannual Report to Congress (SARC)
• helps ensure open markets for U.S. agricultural                 reporting period, results were not provided in the SARC
  products and provides food aid to needy people                  covering the first half of FY 2004. Therefore, this edition
  overseas.                                                       of the SARC provides entire FY 2004 results totals.
                                                                  Future SARCs will include results reflective of the
                                                                  individual SARC reporting period.




                                                            iii
OIG’s overall performance results totals are introduced            management challenges, and ongoing and planned
below in chart form, and followed in the main text by the          audit work. These percentages are based upon a total
three sections that include statistical results, summaries         of the direct hours of audit and investigation work and
of significant investigative and audit accomplishments,            do not include overhead or administrative hours.


 PERFORMANCE RESULTS TOTALS

FY 03 and 04 Performance Results Totals for All Three Strategic Goals Combined

                                                          FY 03                    FY 04                 FY 04
Performance Measures                                     Baseline                  Target                Actual

Audit/Investigative resources dedicated                       81%                   90%                   93%
to critical/high impact work

Audit recommendations resulting in                            78%                   85%                   79%
management decision within 1 year

Investigative cases where criminal, civil                    61.6%                  65%                   68%
or administrative action is taken in
response to OIG reports




                                                              iv
Contents


Message From the Inspector General ..................................................................................................................                           i
Outlook for OIG ......................................................................................................................................................        iii
Contents ..................................................................................................................................................................    v
Safety, Security, and Public Health ......................................................................................................................                     1
    Examples of Audit and Investigative Work for Goal 1 ..........................................................................................                            1
Integrity of Benefits and Entitlements Programs ................................................................................................                               8
    Examples of Audit and Investigative Work for Goal 2 ..........................................................................................                            8
Management of Public Resources ........................................................................................................................                       17
    Examples of Audit and Investigative Work for Goal 3 ..........................................................................................                            17
Summaries of Audit and Investigative Activities ................................................................................................                              24
Full FY 2004 Results in Key Categories ...............................................................................................................                        25
Statistical Data .......................................................................................................................................................      26
    Audits Without Management Decision .................................................................................................................                      26
    Indictments and Convictions ................................................................................................................................              32
    Office of Inspector General Hotline ......................................................................................................................                33
    Freedom of Information Act and Privacy Act Requests .......................................................................................                               34
Appendix I: Inventory of Audit Reports
  With Questioned Costs and Loans ..................................................................................................................                          35
Appendix II: Inventory of Audit Reports
  With Recommendations That Funds Be Put to Better Use ............................................................................                                           36
Appendix III: Summary of Audit Reports Released From
  April 1 Through September 30, 2004 ...............................................................................................................                          37




                                                                                         v
vi
Safety, Security, and Public Health


OIG Strategic Goal 1: Support                                EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                             WORK FOR GOAL 1
USDA in the enhancement of
safety and security measures to                             APHIS Had Not Established Policies and
                                                            Procedures for Securing Aircraft
protect USDA and agricultural
resources and in related public                             The Animal and Plant Health Inspection Service
                                                            (APHIS) has mitigated some security risks for its Wildlife
health concerns                                             Services’ (WS) and Plant Protection and Quarantine’s
                                                            (PPQ) 35 aircraft, but they were vulnerable to theft and
OIG audits and investigations were conducted to protect     possible misuse by terrorists because officials were
consumers by ensuring that the Nation’s commercial          waiting for USDA to issue formal guidance. WS aircraft
supply of imported and domestic meat, poultry, and egg      were not always equipped with appropriate locking
products was safe, wholesome, and correctly labeled; to     mechanisms, access to APHIS aircraft was not always
protect production agriculture from pests, disease, and     restricted, and intrusion devices were not always
other threats; and to protect USDA personnel and            effectively used. Some security measures
property, and the public from other threats.                recommended for PPQ aircraft in a formal risk
                                                            assessment report had not been implemented.
In FY 2004, 17 percent of our total audit and
investigative resources were devoted to Goal 1, with        We recommended that APHIS assess overall risk;
99.6 percent of these resources assigned to critical/high   address all issues identified during the risk
impact work. Eighty-nine percent of our audit               assessments; and develop written policies and
recommendations under Goal 1 resulted in                    procedures to provide a consistent way of appraising all
management decision within 1 year, and 42 percent of        aspects of the agency’s aircraft security, to set basic
our investigative cases had criminal, civil, or             standards for securing aircraft, and to serve as a formal
administrative action taken. OIG issued 9 audit reports     security program. APHIS concurred with the findings
under Goal 1 during this reporting period and a total of    and recommendations, and provided timeframes for
15 audit reports during the full fiscal year. OIG’s         completing security procedures and risk assessments.
investigations under Goal 1 yielded 34 indictments, 15      (Security Over APHIS-Owned and -Leased Aircraft,
convictions, and about $200,000 in monetary results         Audit Report No. 33601-1-At)
during this reporting period and 36 indictments, 32
convictions, and about $900,000 in monetary results         Wildlife Services Needs To Improve Accountability
during the full fiscal year.                                and Storage of Hazardous Materials

                                                            Our audit concluded that WS is unable to fully account
                                                            for its inventories of hazardous pesticides and controlled




                                                            A restricted-use pesticide was stored under this pile of flammable
                                                            debris. OIG photo.


                                                                                                                                 1
drugs used to immobilize or euthanize nuisance                           Eight Persons Indicted or Convicted in Scheme to
mammals and birds, including species that are                            Smuggle Viruses From Saudi Arabia
reservoirs for zoonotic diseases. In addition, these
inventories are not always stored safely and securely,                   Company officials at a manufacturer and international
leaving them vulnerable to undetected theft,                             supplier of poultry vaccines were involved in the
unauthorized use, and a possible threat to human and                     smuggling of live viruses from Saudi Arabia into the
animal safety.                                                           United States. Seized materials tested positive for
                                                                         Exotic Newcastle Disease and Avian Influenza, and
OIG recommended that APHIS organize a coordinated                        were determined to have originated outside the United
system of management control over the inventories to                     States. Six former company officials, including the
ensure proper accountability, safety, and security. As a                 president, three vice presidents, a production manager,
result of the improvements made after the audit                          and a customer service manager, have pled guilty. The
fieldwork was completed, APHIS management now                            company has agreed to plead guilty as well. Charges
feels that WS is able to fully account for its inventories.              include conspiracy to commit mail fraud, conceal
While we agree that APHIS WS has improved its                            smuggled items, make false statements, and violate the
accountability, additional actions are needed including a                Virus-Serum Toxin Act. Two of the lower-level
management control process to ensure that                                employees pled guilty and have been sentenced to
discrepancies found during reviews or inspections are                    probation and $4,600 in fines. In addition, a former
promptly corrected, hazardous materials inventory                        professor and department chairman at a university in
inspections are timely completed, and applicators                        Delaware pled guilty to aiding the smuggling scheme,
possess adequate equipment to safely handle and                          and a former employee of a poultry farm in Saudi Arabia
dispense hazardous materials and drugs. (WS Controls                     was indicted for making false statements. Further court
Over Hazardous Materials Inventory, Audit Report No.                     proceedings are pending. This case was worked jointly
33001-5-Hy)                                                              with the U.S. Department of Commerce’s Office of
                                                                         Export Enforcement and the Department of Homeland
                                                                         Security’s Immigration and Customs Enforcement.




Closeup of the pesticide in storage with its “poison gas” warning sign
that was buried under debris. OIG photo.




                                                                         Materials on counter seized from the residence of a former company
                                                                         employee. OIG photo.




2
Subject Sentenced to 20 years in Jail for Providing            • APHIS’ plan to test 20,000 clinically normal cattle
Support to Al Qaeda                                              may suggest a level of assurance higher than
                                                                 warranted.
While OIG was an active part-time participant on the
Federal Bureau of Investigation (FBI) Joint Terrorism          Significant challenges continue for APHIS to determine
Task Force (JTTF) in Columbus, Ohio, we aided in the           whether BSE exists in the United States at a prevalence
investigation of an individual for providing material          of 1 positive case per 10 million adult cattle.
support to the al Qaeda terrorist network. He pled guilty
in the Eastern District of Virginia by a Bill of Information   • Cattle condemned at slaughter plants for CNS
to one count of Conspiracy to Provide Material Support           disorders were not always tested for BSE.
and Resources to al Qaeda and one count of Providing
Material Support and Resources to al Qaeda. The                • USDA needs to increase testing of rabies-negative
resources included sleeping bags and cellular                    brain samples from animals that exhibit clinical signs
telephones. He was sentenced to 20 years in prison.              not inconsistent with BSE.

USDA Faces Significant Challenges in Implementing              • A process for obtaining samples from animals that
BSE Surveillance Program                                         “died on the farm” has not been developed.

Since 1990, testing of Bovine Spongiform                       • The age requirement for BSE testing should be
Encephalopathy (BSE), widely known as “mad cow                   standardized.
disease,” has centered on high-risk cattle—those that
exhibited a disorder in the central nervous system             We also found instances of nonviable test samples and
(CNS) or died from unclear causes. With the discovery          inaccurate, incomplete, or misleading information
of a BSE-infected animal in December 2003, APHIS               recorded. Finally, we noted that before June 1, 2004,
expanded its surveillance program beginning June 1,            APHIS did not have standard written agreements to
2004.                                                          ensure consistent performance from non-Federal
                                                               laboratories and reasonable arrangements and charges
We sought to determine whether the surveillance                from meat plants and contractors who provide sampling
program in place in December 2003 had been                     services.
adequately implemented and whether the expanded
program will accomplish its stated goal to determine if        We recommended that APHIS fully disclose the
“…BSE is actually present in the population and if so, at      assumptions behind its sampling plan, clarify the
what level.” We concluded that several limitations             limitations, and ensure that all high-risk animals are
inherent in the broadened sampling plan need to be             sampled and tested in accordance with USDA policy
clarified to understand what the results of the testing        and the 2004 Surveillance Plan. We also recommended
actually imply.                                                that APHIS expedite development of a new system to
                                                               track and report accomplishments, and implement
• Sampling is not truly random because participation in        performance measures and continuous risk
  the program is voluntary.                                    assessment. Finally, we recommended that APHIS
                                                               standardize testing agreements. APHIS and the Food
• Discovery of BSE cases will result in a misleading           Safety and Inspection Service (FSIS) concurred and
  statistical projection, which may inadvertently              initiated corrective actions.
  overemphasize the implied “best-case scenario.”
                                                               In addition, we conducted two BSE-related
• APHIS cannot obtain a statistically appropriate              investigations. One addressed allegations of
  geographical representation of the U.S. cattle               misconduct with respect to the identification of a BSE-
  population, so the chances of detecting BSE, if it           infected cow in Washington State in December 2003,
  exists, may be reduced, and the projected maximum            and the other addressed the actions of USDA personnel
  BSE prevalence rate may be unreliable.                       involved in the failure to test a suspect cow in San
                                                               Angelo, Texas, in late April 2004. In the case in
                                                               Washington State, allegations arose in news reports


                                                                                                                       3
that a person or persons employed by USDA may have           check forms for the October 2002 recall, reassess the
provided false or misleading information concerning the      validity of its conclusion, and ensure that it adequately
ambulatory status of the BSE-positive cow. Our               supports its conclusions regarding future recalls. FSIS
investigation found no instances where USDA                  generally concurred and agreed to strengthen recall
personnel knowingly conveyed false or misleading             controls and procedures, and issued a directive on May
information, or engaged in intentional misconduct. Our       24, 2004, to address this. We continue to work with
investigation did reveal procedural errors and               FSIS on this matter because the directive did not
inconsistent descriptions that gave rise to some of the      require the documentation of all information the agency
public concerns that the identification of the BSE-          considers in assessing the effectiveness of a recall and
positive cow may have been mishandled.                       how the assessment is completed. (Effectiveness
                                                             Checks for the Pilgrim’s Pride Recall of Ready-to-Eat
In Texas, our investigation found no substantive             Poultry Products, Audit Report No. 24601-3-Hy)
evidence that the USDA official(s) responsible for the
decision not to take brain tissue samples from the cow       FSIS Needs To Improve Control Over Plants With
for BSE testing, or any other USDA personnel, provided       Product Recalls
false information or engaged in intentional misconduct.
We determined that a misjudgment was made by at              From January 1, 2002, to January 3, 2003, 15 recalls
least one USDA veterinary official in the handling of the    involved approximately 32.2 million pounds of ready-to-
suspect cow.                                                 eat products potentially contaminated with Listeria
                                                             monocytogenes in the Northeastern United States. The
In related work, we are scheduled to begin a review of       largest recalls took place in October 2002, as described
the implementation of the BSE expanded surveillance          in the previous entry, and at another poultry products
program in November 2004. (BSE Surveillance Program          establishment that recalled 4.2 million pounds in
– Phase I, Audit Report No. 50601-9-KC)                      November 2002.

FSIS’ Oversight of Poultry Recall Needed                     FSIS’ inspection services at the second establishment
Improvement                                                  were inadequate before and after the recall because
                                                             FSIS’ in-plant inspection personnel did not comply with
In October 2002, a corporation recalled approximately        inspection regulations and the circuit supervisor
27.4 million pounds of ready-to-eat poultry products         provided minimal supervision. Also, plant and inspection
potentially contaminated with Listeria monocytogenes,        personnel, including the FSIS Consumer Safety Officer,
the largest recall in 2002. To verify the effectiveness of   did not identify that the company should have had a
a recall, FSIS compliance officers contact a sufficient      Listeria testing program. Moreover, FSIS never did
number of customers to ensure that the product               verify the completeness of the recall. We also found that
manufacturer or distributor provides adequate notice of      FSIS did not critically review final reports and other
the recall to all customers and that customers locate        information supporting its oversight of food safety
and control the recalled product. FSIS concluded in July     recalls and did not ensure that the October 2002 recall
2003 that the recall was effective based on FSIS             of 1.7 million pounds of products distributed by USDA
effectiveness check forms that compliance officers fill      for use in the National School Lunch Program was
out, but we found 389 discrepancies on the 582 forms         effective.
we examined (some contained more than one
discrepancy). Furthermore, FSIS supervisors did not          We did find that in conjunction with the Centers for
adequately review the forms. In addition to the FSIS         Disease Control and Prevention, the FSIS Office of
effectiveness checks, we analyzed 40 of the 784              Public Health and Science took appropriate action in
effectiveness checks conducted by company personnel,         investigating the Listeria outbreak in 2002. FSIS
which we found were adequately performed.                    performed an extensive trace-back analysis.

OIG recommended that FSIS implement a process for            In response to our recommendations, FSIS agreed to
selecting customers for effectiveness checks and             formally address the weaknesses in inspection services
establish timeframes for completing and reviewing            provided to the company involved in the November
them. FSIS needs to reexamine all the effectiveness          2002 recall, such as the level of supervision over the



4
inspector in applying regulations; require compliance         analytical capacity within the recall management
officers to validate the accuracy of recall documentation     function to review and analyze product recall cases. In
provided by the firm; and ensure that all recalled            related work, we are scheduled to review FSIS’ In-Plant
products are appropriately accounted for. FSIS also           Performance System (IPPS), which is the agency’s
agreed to conduct a followup review on the related            supervisory review of inspectors. (Review of Food
recalls. (Oversight of the Listeria Outbreak in the           Safety Information System, Audit Report No.
Northeastern United States, Audit Report No.                  24601-3-Ch)
24601-2-Hy)
                                                              FNS Actions To Identify and Resolve Food Safety
FSIS Needs To Maximize the Effectiveness of Its               Complaints Were Inadequate
Information Systems
                                                              The purpose of our audit was to assess storage and
The Performance Based Inspection System (PBIS) and            handling practices, including the age and condition of
Pathogen Reduction Enforcement Program (PREP)                 commodities, inventory levels, and storage
house a vast amount of food safety data that FSIS uses        temperatures at selected storage facilities, and to follow
to monitor meat and poultry establishments’ compliance        up on a previous OIG audit of the same program. Since
with Federal health and safety regulations.                   our previous audit, the Food and Nutrition Service
                                                              (FNS) had implemented changes to improve the
Although FSIS had cited its information technology (IT)       efficiency of its Food Distribution Program, and we
systems as key elements in addressing problems                found minimal instances of aged product in warehouses
identified by earlier OIG and U.S. Government                 selected for review. However, we found that FNS had
Accountability Office (GAO) audits, it has no effective       not taken timely or appropriate actions to identify and
management control process to ensure that it uses its         resolve commodity complaints with food safety
systems and their data fully. As a result, coordination       concerns that were submitted to its national complaint
and information sharing among FSIS Headquarters, the          hotline. The Illinois Department of Public Health placed
agency’s Technical Service Center, and its district           a Statewide hold on USDA-donated applesauce and
offices needed to be more effective. FSIS also needed         referred the product for testing after receiving four
to provide additional training and written procedures for     complaints of rust or discoloration in canned
its field personnel at the district level and at inspected    applesauce. Over a 6-month period, FNS received 24
establishments to effectively analyze and use food            complaints without taking action, although applesauce
safety data. In addition, FSIS had not created required       vendors were notified and took corrective action. State
system documentation such as flowcharts and data              agencies were not notified of the complaints. FNS also
dictionaries that would allow more effective use of the       had not established procedures for identifying food
systems. Finally, we identified several improvements          complaints involving safety concerns, performing trend
that could potentially enhance the effectiveness of the       analyses of the complaints, or outlining the
IT systems themselves, such as a direct data exchange         responsibilities of all involved agencies.
between PBIS and PREP.
                                                              We issued a Management Alert in March 19, 2004, and
We recommended that FSIS establish written                    in response FNS identified the extent of the applesauce
procedures to define the responsibilities of each             complaints, sent out an advisory to the affected State
management and operating level and provide guidelines         and recipient agencies, and placed applesauce on hold
for regular communication and coordination. We also           until it determined that there was no health risk. FNS
recommended that FSIS provide additional training and         also agreed to establish written procedures for handling
develop enhancements to PBIS and PREP. FSIS                   commodity complaints and identifying food safety
responded that it is in the process of updating its           issues, and to establish timeframes for resolving hotline
management control program and described several              complaints. (Controls Over USDA-Donated
other actions it is taking to increase its oversight of       Commodities, Audit Report No. 27601-33-Ch)
inspectors’ activities, such as creating District Analyst
and Investigative Case Specialist positions. FSIS noted
that its systems were not designed to predict product
recalls. Agency officials stated that they are establishing


                                                                                                                       5
FSIS Slow To Implement Recommendations in                    We recommended that FSIS develop a plan to correct
OIG’s Food Safety Initiative                                 the deficiencies noted where corrective actions were
                                                             agreed to but not implemented. FSIS provided a plan
OIG’s June 2000 Food Safety Initiative comprised four        with target dates to accomplish this. For the four
audits on FSIS’ Hazard Analysis and Critical Control         recommendations without management decision, FSIS
Point (HACCP) Implementation, Pathogen Testing               still needs to show how it plans to correct the reported
Program, Foreign Country Equivalency, and                    conditions and the estimated timeframes for completion.
Compliance Activities. We concluded that only 58 of the      (Followup Audit on the IG’s Food Safety Initiative of FY
80 recommendations had been successfully                     2000, Audit Report No. 24001-4-At)
implemented. FSIS and OIG failed to agree on the
proper corrective actions for 4, and for the remaining 18,   Improvements Needed in the FS Fire Safety
agreement had been reached, but FSIS did not                 Program
implement all the agreed-upon actions. Those actions
related to HACCP plans and regulations, procedures for       The Forest Service (FS) faces continued challenges in
repetitive deficiencies and non-responder reports,           implementing an effective safety program for
import inspection operations, management control             firefighters. While the FS had excellent written
training, assessments of FSIS programs and                   firefighting safety policies and procedures, we
operations, and the integrity of data entered in FSIS        determined that the FS had not fully implemented all the
information systems. In its response to the report, FSIS     safety recommendations from past reviews, did not
stated that the Department has now accepted final            have documentation to support the qualifications of all
action for 66 of the 80 recommendations and FSIS has         its firefighters, and needed to conduct administrative
provided the Department with documentation for final         investigations in the cases of serious fire accidents. The
action on 10 additional recommendations.                     FS also needed to develop standards for measuring
                                                             employees’ adherence to the 10 critical standard
Three recommendations in the HACCP Implementation
audit have not yet been agreed on. We recommended
that FSIS

• require plants to include in their HACCP plans all
  pathogen testing performed to further ensure that
  FSIS inspectors were given access to all test results
  that showed the presence of pathogens.

• require district personnel to monitor inspectors’
  scheduled tasks, update schedules when tasks
  became obsolete, and establish codes to identify the
  reason tasks were not performed.

• establish timeframes for plants to respond to
  noncompliance records issued by FSIS that identify
  plant violations.

FSIS has not yet agreed to the recommendation in our
June 2000 report on Foreign Country Equivalency that it
recognize the conditions disclosed as material
management control weaknesses and report them as
such in the agency’s annual management control report
required by the Federal Managers’ Financial Integrity
Act (FMFIA). FSIS completed an indepth assessment of
its import reinspection organizational structure as an
alternative to OIG’s recommendation. OIG is reviewing
the assessment.                                              Firefighter in action. FS Photo.


6
firefighting safety orders and mitigation of the 18 watch-   ONGOING AND PLANNED REVIEWS
out situations (circumstances that increase the threat to    FOR GOAL 1
firefighter safety). The FS has agreed to take timely
action on the recommendations we have made to                Physical and research security topics that will be
improve its firefighting safety program. (FS Firefighting    covered in ongoing or planned reviews include:
Safety Program, Audit Report No. 08601-38-SF)
                                                             • controls over issuance of release permits for
Multi-State Dog Fighting Case Yields More                      genetically engineered organisms,
Indictments                                                  • implementation of the listed agent and toxin
                                                               regulations,
In a followup from last reporting period, in July 2004 the   • memorandums of agreement with the
Pennsylvania Attorney General charged the owner and            Department of Homeland Security,
the former owner of the Sporting Dog Journal (SDJ) with      • implementation of Homeland Security
cruelty to animals and conspiracy to commit cruelty to         Presidential Directive 9,
animals. Earlier in 2004, the current owner of SDJ was       • followup on FS security over explosives,
sentenced in New York to 2 to 7 years in prison and a        • adequacy of controls to prevent the release of
$5,000 fine. At the homes of the owner and former              sensitive technology,
owner of SDJ, investigators found numerous pit bulls,        • National cooperative State/Federal bovine
subscriber lists, money, marijuana, firearms, 106 cases        Tuberculosis Eradication Program,
of SDJ, VHS tapes of dog fights, and other dogfighting-      • control over genetically engineered animals and
related equipment. As part of the ongoing Pennsylvania         insects, and
investigation, four individuals were convicted and           • agreed-upon procedures in coordination with
sentenced on State animal cruelty and other charges.           OIG-Investigations regarding importation of
They received up to 3 years of probation and fines             Canadian beef products.
totaling $4,200.
                                                             Health and safety topics that will be covered in
 FY 2004 MANAGEMENT CHALLENGES                               ongoing or planned reviews include:
 ADDRESSED UNDER GOAL 1
                                                             • Agricultural Research Service (ARS) controls to
  • Homeland Security Considerations Should Be                 prevent the release of sensitive technology,
    Incorporated Into Program Design and                     • FSIS’ controls to prevent specified risk materials
    Implementation                                             from being processed in advanced meat
  • Increased Oversight and Monitoring of Food                 recovery systems,
    Safety Inspection Systems Are Needed                     • implementation of the BSE expanded
  • Controls Over Germplasm Storage Material and               surveillance program,
    Genetically Engineered Organism Field Testing            • veterinary certificate program, which tracks
    Are Critical to U.S. Markets                               animals across State borders,
                                                             • oversight of avian flu outbreak in Delaware,
                                                             • review of FSIS’ In-Plant Performance System
                                                               (IPPS), which is the agency’s supervisory review
                                                               of inspectors,
                                                             • egg processing inspection,
                                                             • effectiveness of surveillance over animal
                                                               disease eradication programs, and
                                                             • FSIS State-operated inspection programs.

                                                             The findings and recommendations from these
                                                             efforts will be covered in future semiannual reports
                                                             as the relevant audits and investigations are
                                                             completed.



                                                                                                                    7
Integrity of Benefits and
Entitlements Programs

OIG Strategic Goal 2: Reduce                                    EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                                WORK FOR GOAL 2
program vulnerabilities and
enhance integrity in the delivery                              Significant Food Stamp and Electronic Benefits
                                                               Transfer (EBT) Fraud Investigation Results
of benefits to individuals
                                                               • Chicago: After being convicted in December 2003,
OIG audits and investigations were conducted to ensure           the owner of a small convenience grocery store was
or restore integrity in the various benefit and entitlement      sentenced to 70 months in Federal prison, followed
programs of USDA, including a variety of programs that           by 3 years of probation, and was ordered to pay
provide payments directly and indirectly to individuals or       more than $575,000 in restitution for food stamp
entities. These programs support nutrition, farm                 trafficking and money laundering. The owner
production/insurance, and rural development and                  conspired with another storeowner, who had been
involved tens of billions of dollars in outlays for FY 2004.     previously disqualified from participation in FSP, by
                                                                 allowing the other storeowner to use his EBT point-
In FY 2004, 39 percent of our total audit and                    of-sale device for food stamp trafficking and the
investigative resources were devoted to Goal 2, with 85          store’s bank account for the laundering of monies
percent of these resources dedicated to critical/high            from the sale of controlled substances. The
impact work. Ninety-one percent of our audit                     coconspirator was charged with various international
recommendations under Goal 2 resulted in                         drug trafficking and money laundering violations in
management decision within 1 year, and 71 percent of             April 2003.
our investigative cases had criminal, civil, or
administrative action taken. OIG issued 17 audit reports
under Goal 2 during the reporting period and 34 reports
during the full year. OIG investigations under Goal 2
yielded 82 indictments, 159 convictions, and about
$230 million in monetary results during the reporting
period and totaled 250 indictments, 257 convictions,
and about $287.2 million in monetary results for the
full year.




                                                               This store in Chicago was used for food stamp trafficking. OIG photo.


                                                               • New York City: A storeowner pled guilty to illegally
                                                                 trafficking more than $1.2 million in EBT benefits over
                                                                 2 years. The owner admitted that he sent
                                                                 approximately $500,000 of his profits to his home out
                                                                 of the country, where he purchased two houses and
                                                                 a truck. The owner was arrested as he was preparing
                                                                 to return to his home overseas. In addition, a store
                                                                 employee was indicted for participating in the EBT
                                                                 trafficking. Sentencing information for the storeowner
                                                                 will be reported in the next semiannual report. This
                                                                 case was worked jointly with the FBI.

8
• Tampa: As reported last period, the owner and three         that it can report only statistically valid estimates and to
  employees of a grocery store were convicted of EBT          do otherwise would be contrary to OMB and CFO
  fraud and ordered to pay more than $3 million in            guidance. At the time of our audit, FNS had begun to
  restitution and court judgments. At the end of the          develop plans to estimate improper payments in the
  semiannual period, 36 FSP recipients had been               NSLP and had not determined an acceptable approach
  convicted in State courts of trading EBT benefits for       with OMB to address WIC and CACFP improper
  cash, and more than 100 recipients had been                 payments. Subsequent to our audit, FNS informed us
  disqualified from the program. In addition, 18              that it had reached agreement with OMB on a plan for
  recipients were awaiting sentencing in State courts         addressing improper payments in NSLP, WIC, and
  for discounting EBT benefits, and 2 fugitives were          CACFP. FNS is in compliance with IPIA for FSP and
  being sought on Federal charges.                            had also reported dollar estimates of FSP improper
                                                              payments to OMB. In related work, we are scheduled to
Food Stamp Burglar Sentenced to 6 Years in Jail               review the improper payment/purchase card
                                                              management system. (FNS Compliance With IPIA,
Our investigation identified the three individuals who        Audit Report No. 27601-32-Ch)
stole $170,493 in food stamps from the Allen County
Department of Family and Children Food Stamp                  FNS Needs To Ensure Disqualified Retailers Are
Issuance Office in Fort Wayne, Indiana, in February           Disqualified From All Programs
2000. One fugitive was located in a Tennessee prison,
was extradited back to Ohio, pled guilty, and was             FNS rules require that when a retailer is disqualified
sentenced to 72 months of imprisonment.                       from participation in FSP or WIC, the retailer should be
                                                              disqualified from both programs. We reported in August
FNS Compliance With Improper Payments                         2004 that from October 2000 through July 2003, FNS
Reporting Requirements                                        disqualified 459 retailers from the Florida and Georgia
                                                              FSPs, and the State agencies administering WIC
In order to strengthen financial management and               disqualified 94 retailers from that program.
accountability, various Congressional and administrative
actions have been initiated in recent years. One of the       Of the 46 retailers disqualified from FSP who also
most significant is the Improper Payments Information         participated in WIC, 8 (17.4 percent) did not receive a
Act of 2002 (IPIA), which requires an assessment of           reciprocal disqualification from WIC. The FNS field
programs’ susceptibility to improper payments and the         offices did not have sufficient procedures to verify that
development of mitigation plans to reduce them. FNS           the retailers/vendors disqualified from FSP were
will not be in a position to comply with IPIA and Office of   referred and removed from the WIC Program. As a
Management and Budget (OMB) guidance to estimate              result, the eight disqualified retailers continued to
and report on improper payments for NSLP, WIC, and            participate in WIC and redeemed $483,154 in WIC
the Child and Adult Care Food Program (CACFP) in              benefits through December 31, 2003. The Georgia FNS
USDA’s FY 2004 Performance and Accountability                 Field Office also improperly permitted civil monetary
Report (PAR). We reported that FNS had sufficient             penalties to 17 disqualified WIC retailers in lieu of a
history through our audits and its own studies to             reciprocal disqualification from FSP. The 17 disqualified
establish baseline estimates of improper payments to          WIC retailers received civil monetary penalties totaling
provide a basis of measurement for program                    $148,974, but continued to participate in FSP and
improvements. While identifying NSLP and WIC as               redeemed FSP benefits of $1,860,289 through
susceptible to significant improper payments, FNS             February 13, 2004. While the WIC and FSP participants
declined, however, to use the reported data because           were eligible to redeem their WIC vouchers or FSP
the estimates were not statistically valid.                   benefits, the stores in question should have been
                                                              disqualified from accepting the vouchers or EBT cards.
FNS disagreed with our recommendations to develop
methodologies to quantify and report the extent of            FNS generally agreed with the recommendations made
improper payments in NSLP and WIC from available              to improve controls over reciprocal disqualifications. In
data until statistically valid estimates are available, and   related work, we are scheduled to review the
estimate improper payments for NSLP, WIC, and                 reauthorization of FSP retailers. (Vendor Sanction
CACFP starting in the USDA FY 2004 PAR, including             Policies, Audit Report No. 27002-1-At)
corrective actions taken and planned. FNS maintained
                                                                                                                         9
Philadelphia Needs To Prevent Overclaims                   verification error rate nearly doubled from 18 percent to
in NSLP and SBP                                            35 percent after we independently performed the
                                                           process. The SFA incorrectly implemented its CACFP
Our review of the Philadelphia school food authority’s     at-risk after-school supper program by allowing its
(SFA) National School Lunch Program (NSLP) and             schools to use the offer versus serve provision. The
School Breakfast Program (SBP) attendance and meal         offer provision allows the student to take just three of
count operations during school year 1999/2000              the required five meal components to count as a
disclosed that the SFA had not complied with Federal       reimbursable meal. However, the supper program
regulations for ensuring the accuracy of meal counts       requires that the five meal components must be served.
before submission of monthly claims for reimbursement.     This resulted in 78 percent more meals being counted
The SFA claimed 241,852 meals served in excess of          than met requirements. We estimated that on any given
students in attendance, 147,954 meals in the incorrect     school day the SFA would claim 11,223
reimbursement category, and 109,778 more free and          nonreimbursable suppers. Due to the SFA’s limited
reduced-price meals than could be supported by             oversight, we questioned $1,226,668 in program funds,
approved applications and direct certifications. It also   and recommended collection of $659,335.
did not effectively monitor each school’s meal counting
and claiming system to provide reasonable assurance        FNS generally agreed to our series of recommendations
that feeding sites submitted accurate meal claims. Even    to address the control weaknesses identified by our
though the SFA was approved by FNS to serve all            audit and to recover excess reimbursements. (Chicago
meals free, Federal reimbursement was limited to the       SFA’s Accountability and Oversight of NSLP, SBP, and
number of meals served and an established claiming         CACFP Supper Program, Audit Report No.
percentage for free, reduced-price, and paid meals         27010-17-Ch)
based on a socio-economic study.
                                                           Nevada Department of Education Needs To Revise
As a result, the SFA received excess reimbursements of     Claim Against SFSP Sponsor
$844,065 for claiming errors and meals claimed in
excess of attendance. Subsequently, the SFA indicated      The Nevada Department of Education (NDE)
to us that it had taken corrective actions to strengthen   administers that State’s Summer Food Service Program
controls over its NSLP and SBP meal count operations.      (SFSP). A whistleblower alleged that NDE failed to
We found no evidence of improved supervisory review        finalize an audit report that would have required
or other management controls to ensure that the edit       $700,000 in fraudulently obtained Federal funds to be
checks were performed correctly and that needed            returned, and altered its records to hide the theft of
adjustments had been made. As a result, we found           these funds.
additional overclaims of $23,359.
                                                           We were unable to substantiate the allegations made by
FNS generally agreed with our series of                    the whistleblower. However, in our audit report of
recommendations to address the control weaknesses          August 2004, we determined that NDE did not
identified by our audit and to recover excess              recommend that a claim be established against a
reimbursements. (Philadelphia SFA, Attendance and          sponsor for failing to maintain documentation that would
Meal Count Analysis, Audit Report No. 27010-31-Hy)         justify its August and September 2001 claims. State
                                                           agencies must establish a claim to recover any payment
Chicago SFA Needs To Improve Oversight of NSLP,            to a sponsor if the records do not justify all costs and
SBP, and CACFP After-School Supper Programs                meals claimed. Because NDE did not bill for the failure
                                                           to maintain documentation, the sponsor was overpaid
We evaluated a Chicago school food authority’s             $229,964.
accountability and oversight of NSLP, SBP, and the
CACFP after-school supper program. Nearly 27 percent       FNS agreed with our recommendation that NDE revise
of the 598 schools in the Chicago SFA submitted            its claim to reflect the additional questioned costs of
undetected inflated meal claims, overclaiming 642,102      $229,964 and re-bill the sponsor. (SFSP, State of
breakfasts and lunches. The SFA’s application              Nevada, Audit Report No. 27099-31-SF)




10
Man Sentenced to Prison, Restitution for False                   was ordered to pay restitution of $2.1 million to those
Claims in Nutrition Assistance Programs                          producers he defrauded. OIG worked jointly in the
                                                                 investigation with the FBI.
During 2002, a Los Angeles man who had previously
been terminated from participation in NSLP by the              • A produce broker in Dallas defrauded the produce
California Department of Education for mismanagement             industry of over $1 million in perishable produce by
reapplied to participate in the NSLP, School Breakfast,          ordering the produce from one company and then
and After School Snack Programs under an alias. He               immediately selling it to another company for a
submitted bogus claims for February through October              significantly lower price with no intent to pay. He pled
2002 totaling more than a quarter of a million dollars           guilty in Dallas Federal court to 19 counts of
and received approximately $110,000 in reimbursement             interstate transportation of stolen property and 1
of cost payments. He pled guilty to submission of false          count of bank fraud. Because he continued his fraud
claims and in April 2004 was sentenced to 30 months in           after pleading guilty, a Federal judge remanded him
prison, followed by 3 years of supervised release, and           to custody until his sentencing.
was ordered to pay restitution of $109,000.
                                                               Improvements Needed for CCC Wheat
Cattle Broker and Bookkeeper Sentenced to                      Sales Process
Significant Jail Time, Major Restitution in Huge
Cattle Scam                                                    A Member of the Congress asked us to assess the
                                                               impact of Commodity Credit Corporation (CCC)-owned
As noted in the last semiannual report, a cattle broker        wheat sales in 2002 on market prices and warehouse
and his bookkeeper each pled guilty in November 2003           operations. The Congressman was concerned that,
to five counts of mail fraud, wire fraud, false entries, and   although CCC traditionally catalogued selected wheat
criminal forfeiture. This followed a joint investigation by    stocks available for sale, in 2002 it made available all its
OIG, the FBI, and the Grain Inspection, Packers and            wheat, allowing buyers to purchase all the stocks stored
Stockyards Administration (GIPSA) that revealed a              in small/competitor warehouses and to deprive such
scheme to defraud investors, business associates, and          warehouses of storage revenue.
financial institutions of $166 million. In May 2004, the
cattle broker was sentenced to serve 9 years in Federal        We estimated that a representative sample of 16 of 134
prison without parole, and was ordered to pay restitution      warehouses from which CCC-owned wheat was sold
of $182.9 million. The bookkeeper was sentenced to             would sustain annual storage revenue losses of about
serve 7 years 3 months in Federal prison without parole.       $2.13 million on the wheat sold in 2002. However, this
This monetary result is the largest in OIG’s history.          may be mitigated by future CCC storage agreements for
                                                               other commodities, as the revenue from the wheat
‘Failure-To-Pay’ Schemes Halted in New York                    storage made up only a small portion of the
and Dallas                                                     warehouses’ gross revenues. In addition, trends in
                                                               annual operations did not lead us to conclude that there
• The operator of a wholesale fresh fruit and vegetable        was a direct relationship between CCC storage income
  business in Queens, New York, was convicted for              and net income from operations. We were not able to
  making false statements and mail and wire fraud in           determine the sales’ impact on associated market prices
  regard to Perishable Agricultural Commodities Act            because data showing market price trends by the
  (PACA) license applications. Beginning in about              causal economic factor(s) was lacking. However, our
  1999, he opened several fruit and vegetable                  review did disclose that the Farm Service Agency (FSA)
  brokerage firms and conducted business without a             needs improved controls over the sales process.
  PACA license or provided false information on PACA
  license applications. He also opened a brokerage             We recommended that FSA institute written policies and
  firm and then closed it after ordering and receiving a       procedures, including provisions to retain
  large shipment from an overseas seller without               documentation to support acceptable sales price
  making payment to the produce owners. In May                 determinations. FSA also should periodically remind
  2004, he was sentenced to 24 months in prison and            warehouse stakeholders that sales policies are subject
                                                               to change and adequately notify them of significant


                                                                                                                        11
changes. Further, FSA should prevent abuse of the            74 acquired properties with another 16 remaining in
placement of inventory lots into “unavailable” status        inventory. The 74 properties had been held as
during periods of sales activity and apply sanctions for     unproductive assets for an average of 4 years. As of
violations of any future bid quantity and/or offer limits.   December 31, 2003, the 16 remaining properties had
FSA generally agreed and began to retain supporting          been held an average of 6 years. The excessive delays
documentation on rejected bids. (Analysis of FSA/CCC         generally were due to FSA lacking timeliness both in
Wheat Sales, Audit Report No. 03801-6-KC)                    selling the properties and in following up when technical
                                                             or legal issues arose. The 90 properties, valued at $8.4
Better Oversight Needed for Federal Water Loss               million when they were acquired, either sold for or had a
Assistance Grants                                            market value (per the latest appraisals) totaling $6.3
                                                             million—a net decline of $2.1 million. Improved
Congress authorized two grants totaling $20 million to       management of acquired properties is necessary given
assist agricultural producers along the Rio Grande in        that as of January 2004, 233 delinquent borrower
Texas for economic losses during the 2001 and 2002           accounts in Puerto Rico either had been accelerated or
crop years due to Mexico’s failure to deliver water to the   were pending legal action with the likelihood that FSA
United States in accordance with a treaty signed in          will acquire the real estate security in many cases.
1944. The Texas Department of Agriculture (TDA)
administered the CCC-funded grants.                          We recommended that the Puerto Rico FSA Office
                                                             develop a control system to monitor the inventory
We reviewed 40 payments totaling $1,686,071 made to          property disposition process and assign a coordinator to
31 producers for 2002 economic losses and 5 payments         link the phases in the process. (FSA Disposition of
totaling $448,708 to 5 producers for 2001 economic           Foreclosed Properties in Puerto Rico, Audit Report No.
losses. TDA paid four producers duplicate payments           03099-165-At)
totaling over $54,000 for the 2002 crop year of which all
but $392 was recovered during the audit. TDA                 Mississippi Trio, Partnerships Convicted in
disbursed the $20 million in grant assistance to             $11.2 Million Fraud Conspiracy
producers based on acres eligible for irrigation, which it
considered legal and appropriate, rather than on the         On June 24, 2004, one of Mississippi’s largest farmers
producers’ economic losses caused by Mexico’s failure        and his brother, a former chemical company manager,
to deliver the water, which was provided in the law.         pled guilty to conspiracy to defraud FSA of $11.2 million
Further, although TDA offset $17,462 in grant funds          in subsidy program payments, submitting false
against State debt, TDA did not offset any payments for      statements to FSA, wire fraud, mail fraud, money
Federal debt owed by producers since such a                  laundering, and witness tampering. The plea includes
requirement was not in the grant agreement.                  the criminal forfeiture of approximately 400 acres and
                                                             one of the farmer’s houses that had been built with the
We recommended that FSA direct TDA to determine              proceeds from this scheme. On June 17, 2004, the
whether additional duplicate payments were made, and         farmer’s accountant, who actively participated in the
request USDA’s Office of the General Counsel (OGC) to        conspiracy, pled guilty.
determine whether TDA disbursed grant assistance in
accordance with the law and whether Federal debt-            From 1999 through 2001, the conspirators created 13
offset procedures can be incorporated as a requirement       partnerships and 64 different corporations to
in CCC-funded grant agreements. (Federal Assistance          fraudulently obtain payments from FSA and the Risk
Grants to Producers Along the Rio Grande in Texas,           Management Agency (RMA). They recruited and paid
Audit Report No. 03099-180-Te)                               individuals for the use of their names and Social
                                                             Security numbers to secure enough stockholders for
Acquired Real Estate Was Not Sold Timely                     each entity and misrepresented those names to FSA to
                                                             obtain the subsidy payments. The conspirators also
We found that the Puerto Rico FSA Office had not             attempted to persuade those individuals to testify falsely
complied with Agency sales policies that require             before a Federal grand jury and to OIG agents. The
acquired inventory properties to be sold within 165 days     accountant, the farmer, and his brother were scheduled
of acquisition. From 1997 through 2003, the office sold      to be sentenced in the fall of 2004.



12
Pennsylvania Producer Pleads Guilty to Loan Fraud          bankruptcy but provided false information to the
and Polluting U.S. Waterways                               bankruptcy court. In July 2004, the farmer pled guilty to
                                                           bankruptcy fraud and unauthorized conversion of
In May 2004, a producer in York County, Pennsylvania,      mortgaged property and was sentenced to serve 20
pled guilty to making false statements to secure more      months in Federal prison and ordered to pay fines and
than $1 million in USDA-guaranteed bank loans and          restitution of more than $181,000.
selling $200,000 of USDA-secured loan chattel. He was
also charged with dumping more than 500,000 gallons        Borrower Sentenced to 12 Months in Prison for
of raw animal waste onto land adjacent to a stream that    False Claims
flowed into the Susquehanna River, polluting more than
4 miles of stream and killing thousands of fish.           A farm borrower in Oklahoma prepared false statements
Sentencing was scheduled for January 2005. This            showing she had purchased more than $90,000 in
investigation was conducted jointly with the FBI.          fictitious equipment, cattle, and other services. She then
                                                           faxed the statements to FSA and instructed FSA
Associations, Sheriff and Deputy Defraud AILFP             personnel to transfer the money from her supervised
                                                           bank account to her personal checking account. The
• Two managers of several tribal livestock grazing         borrower pled guilty and was sentenced to 12 months
  associations, representing more than 25,000 head of      and 1 day in prison, and full restitution.
  cattle in Arizona, fraudulently received more than
  $365,000 in reimbursement for emergency livestock        Illinois Farmer Sentenced in Conversion of
  feed under the American Indian Livestock Feeding         Mortgaged Collateral
  Program (AILFP). AILFP provides financial
  assistance to livestock owners on Native American        In May 2004, an Illinois farmer was sentenced to 5
  tribal lands affected by natural disasters, such as      years of probation and ordered to pay $28,418 in
  drought. From May 1999 through May 2000, they            restitution after his guilty plea to one count of
  submitted altered canceled checks and fabricated         conversion of mortgaged collateral to CCC. In
  invoices to FSA as proof of payment for livestock        December 2000, the farmer had received $51,022 when
  feed that had not actually been purchased. Each pled     he applied for a Farm Stored Loan and pledged 26,300
  guilty to one felony count of making a false statement   bushels of corn to CCC. In September 2001, the CCC
  to CCC. The first manager was sentenced to 5 years       loan matured and the farmer failed to repay CCC after
  of probation and 6 months of home confinement. The       having agreed to forfeit the grain to a particular elevator.
  second was sentenced to 2 years of probation and         The farmer admitted to selling the corn to two other
  6 months of home confinement, and was fined              elevators.
  $2,000. Civil sanctions are pending against the
  Indian tribe and seven livestock associations for        Excessive Payments of $394,080 Due to Errors or
  recovery of the $365,000.                                Misinterpretation of Procedures

• A Montana sheriff and his deputy pled guilty to          This audit focused on added-land yield determinations
  conspiracy to defraud FSA after an OIG investigation     for the Multiple Peril Crop Insurance (MPCI) and Crop
  showed that both submitted false feed receipts to        Revenue Coverage (CRC) programs for crop year 2000,
  FSA to fraudulently obtain $29,144 in payments           as well as RMA’s changes to added-land policy for crop
  under AILFP. Sentencing of both was scheduled for        years 2001 to 2003. We determined that revisions to the
  November 2004.                                           added-land policy since crop year 2000 resulted in
                                                           yields more representative of producers’ operations,
Tennessee Farmer Sentenced to 20 Months in                 and made no recommendations. However, we found
Prison, Fines, Restitution                                 that insurance providers, in determining crop years
                                                           2000 and 2001 actual production history (APH) yield for
Between January 2000 and December 2002, a                  added-land units for five producers, did not consider
Tennessee farmer converted more than $171,900 in           prior production history and APHs. This resulted in
livestock and farm equipment that was mortgaged for        excess indemnity payments of $372,080 to the five
loans he received from FSA. The farmer also filed for      producers because of errors or misinterpretation of yield
                                                           determination procedures by the insurance providers.

                                                                                                                    13
Another producer’s indemnity payment for crop year         Service (RBS) officials stated this occurred because
2001 was based on more cotton acres than were              sufficient time was not available to develop, publish, and
actually planted. Although the producer certified the      finalize program regulations and internal operating
report of acreage was correct, he stated that there was    procedures.
a misunderstanding between him and the FSA program
technician concerning total acres planted when the         OGC and OMB permitted RBS to implement the
report was filed, resulting in an excessive indemnity      program as a pilot during FY 2001. The Farm Security
payment of $22,000.                                        and Rural Investment Act of 2002 clarified the VAPG
                                                           eligibility requirements, and RBS officials asserted they
We recommended that RMA require the insurance              needed to solicit project proposals and make grant
provider to recover the $394,080 in excess indemnity       awards within reduced timeframes. RBS issued final
payments. RMA conditionally concurred with the audit       VAPG regulations on April 29, 2004, after the end of FY
findings and is conducting its own review to determine     2003, attributing the delay to the need to obtain final
appropriate action. (Added-Land Policy, Audit Report       clearance from OGC and OMB. Consequently, there is
No. 05099-25-At)                                           reduced assurance that the grants, totaling $86.4
                                                           million, were awarded to the most worthy applicants and
Eight Persons Guilty in $12 Million Federal Crop           were within the legislative intent of the program.
Insurance Fraud Scheme
                                                           We also found that the VAPG regulations did not
During 2003 and 2004, eight individuals in North           include sufficient controls to ensure the program could
Carolina pled guilty to a variety of charges involving a   be administered effectively. RBS generally agreed with
complex conspiracy to defraud the Federal Crop             the conditions cited in our report, and we are working
Insurance Corporation (FCIC) and several private           with the agency to reach management decision. (Survey
insurance companies of more than $12 million from          of VAPG, Audit Report No. 34601-3-KC)
1997 to 2003. An extensive 30-month investigation by
OIG, RMA’s Special Investigation Branch, and IRS-          Rural Rental Housing (RRH) Program Vulnerable to
Criminal Investigation revealed that the corporation and   Fraud and Threats to Tenant Health and Safety
its owners received more than $9.28 million in crop
insurance payments and were attempting to obtain an        In March 1999, OIG and the Rural Housing Service
additional $3 million based on an elaborate scheme of      (RHS) issued a joint report on 32 owners and
providing false documents to RMA. The scheme               management agents that had been identified as a high
included hiding production through manipulation of         risk for misuse of RHS funds. The review found that the
documentation filed with FCIC, manipulating maps of        owners and management agents had misused funds
claimed cropland, and posing crop damage by throwing       while the projects’ physical conditions deteriorated. RHS
ice in portions of a field in order to photograph it and   agreed to implement 20 changes in the program to
claim hail damage. The U.S. Marshals Service seized        improve controls over these projects. Our September
real property and vehicles for possible forfeiture to      2004 audit reviewed the status of these planned
recover part of the proceeds lost through fraud.           changes and found that RHS planned to issue new
Sentencing is pending.                                     regulations that would address 14 of the needed
                                                           corrective actions. One of the remaining issues cannot
VAPG Needs Improved Management Controls To                 be addressed until the new regulations are
Ensure Program Integrity                                   implemented. We found that the remaining five issues
                                                           had not yet been addressed by RHS. These five issues
The Value-Added Agricultural Product Market                are:
Development Grant Program (VAPG) helps a variety of
producers and producer groups to develop business          • development of a multi-State review team,
plans for viable marketing opportunities and develop       • requirements for owners to certify reported financial
strategies to create marketing opportunities. We found       information,
that VAPG grants, totaling about $20.4 million in 2001,    • requirements for owners to submit copies of
$37.5 million in 2002, and $28.5 million in 2003, were       contracts for identity-of-interest companies,
awarded without sufficient internal management control     • annual inspections of apartment complexes, and
policies and procedures. Rural Business-Cooperative        • coordination with State and local authorities to
                                                             inspect RRH properties.
14
These measures are critical to preventing fraud, waste,     FY 2004 MANAGEMENT CHALLENGES
and abuse of program funds, as well as correcting the       ADDRESSED UNDER GOAL 2
serious physical deterioration of RRH properties. The
RRH program has been on OMB’s high-risk list for            • Risk Must Be Examined and Improper Payments
many years. In related work, we are scheduled to              Minimized Within USDA
continue our efforts in RHS’ RRH program, focusing on       • Integrity of the Federal Crop Insurance
the construction, rehabilitation, and repair of aging RRH     Programs Must Be Strengthened Through
projects. In addition, we plan to assess RHS’ efforts to      Improved Quality Control Systems and IT
keep RRH projects in the program so that they can             Processing
maintain decent, safe, and affordable rental housing for    • Agencies Need To Better Coordinate Program
rural Americans. (RRH Project Management, Audit               Delivery and Control – New Challenge
Report No. 04016-1-Ch)                                      • Improvements and Safeguards Needed for the
                                                              Rural Multi-Family Housing Program – Agency-
Louisiana Salesperson Sentenced for Defrauding                Specific Challenge
Rural Development Client

On January 29, 2004, a woman in Bossier City,
Louisiana, pled guilty to a bill of information charging
false statements to Rural Development. The woman
represented to Rural Development that she was a
salesperson for a large mobile home manufacturing
business and forged her name to a $47,150 U.S.
Treasury check payable to a mobile home
manufacturing business. The check represented Rural
Development loan funds that were intended to provide a
home for a low-income family. The subject was
sentenced to 6 months of home confinement and 5
years of probation, and was ordered to pay $47,150 in
restitution.




                                                                                                         15
 ONGOING AND PLANNED REVIEWS FOR GOAL 2

     Feeding program topics that will be covered in          RMA and crop insurance topics that will be covered
     ongoing or planned reviews include:                     in ongoing or planned reviews include:

     • a review of the special wage incentive program        • the effectiveness of RMA’s data acceptance
       under the Nutrition Assistance Program in Puerto        system,
       Rico,                                                 • the effectiveness of RMA’s compliance activities
     • continued monitoring of EBT implementation,             and oversight in preventing fraud and abuse,
     • evaluation of State agency corrective action plans    • a review to evaluate and validate the zero acreage
       to reduce FSP error rates,                              data for insured crops,
     • WIC administrative costs,                             • a review to ensure that insurance companies are
     • WIC Program accountability, and                         not able to change insurance pool placement after
     • reauthorization of FSP retailers.                       applicable dates to defray risk or increase
                                                               marketing gains,
     Farm program topics that will be covered in ongoing     • a review to assess RMA’s management controls
     or planned reviews include:                               over producers filing late acreage reports not in
                                                               accordance with the Standard Reinsurance
     • FSA’s implementation of the Milk Income Loss            Agreement, and
       Contract program,                                     • an evaluation of RMA controls over the use of
     • FSA’s implementation of finality rule and equitable     optional units and those of reinsured companies to
       relief provisions as they relate to identifying         ensure claims are adequately supported and
       improper payments,                                      premiums are set at amounts that cover losses
     • FSA’s implementation of the Cattle Feed Program         and build necessary reserves.
       (nonfat dry milk),
     • FSA’s implementation of the Livestock                 Rural Development topics that will be covered in
       Compensation Program,                                 ongoing or planned reviews include:
     • programmatic treatment of crop base on land
       included in Wetlands Reserve Program                  • Rural Utilities Service (RUS) broadband loan
       easements (FSA and the Natural Resources                program,
       Conservation Service (NRCS)),                         • RUS broadband grant program,
     • FSA’s administration of the prohibitions of farm      • RHS’ RRH program, focusing on the construction,
       loans for borrowers that have received debt             rehabilitation, and repair of aging RRH projects,
       forgiveness,                                            and
     • coordination and effectiveness of FSA internal and    • RHS’ efforts to keep RRH projects in the program
       compliance reviews,                                     to maintain decent, safe, and affordable rental
     • Direct and Countercyclical Program base acres           housing for rural Americans.
       and payment yields (FSA), and
     • administration of the Environmental Quality           The findings and recommendations from these efforts
       Incentives Program (FSA and NRCS).                    will be covered in future semiannual reports as the
                                                             relevant audits and investigations are completed.




16
Management of Public Resources


OIG Strategic Goal 3: Increase                              EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                            WORK FOR GOAL 3
the efficiency and effectiveness
with which USDA manages and                                WCF Receives Clean Opinion on FYs 2002 and 2003
                                                           Financial Statements
employs public assets and
resources, including physical                              An independent accounting firm issued a clean opinion
                                                           on the Working Capital Fund’s (WCF) financial
and information resources                                  statements for FYs 2002 and 2003. The firm’s report on
                                                           internal controls over financial reporting identified two
OIG conducted audits and investigations that focused       material weaknesses: WCF needs to make
on improved financial management and accountability,       improvements in financial reporting, analysis,
information technology security and management,            reconciliations, and adjustments; and the firm reported
protection of public assets, employee corruption, Forest   (based on prior OIG audit work) deficiencies in general
Service resources, agricultural research, the              controls over security planning, risk assessments,
Government Performance and Results Act (GPRA),             access controls, change controls, segregation of duties,
contracts, outsourcing, and certain rural development      and service continuity. The firm also disclosed instances
programs.                                                  of noncompliance with Federal Financial Management
                                                           System Requirements.
In FY 2004, 44 percent of our total audit and
investigative resources were devoted to Goal 3, with 98    The firm recommended that the WCF develop and
percent of these resources assigned to critical/high-      implement financial reporting procedures specific to
impact work. Sixty-eight percent of our audit              WCF and establish training programs for key personnel
recommendations under Goal 3 resulted in                   to address weaknesses in financial reporting, analysis,
management decision within 1 year, and 62 percent of       reconciliation, and adjustments. The auditors also
our investigative cases had criminal, civil, or            emphasized that USDA needs to complete corrective
administrative action taken in response to OIG reports.    actions on previous recommendations made by OIG to
OIG issued 25 audit reports under Goal 3 during the        address IT weaknesses that apply to WCF. WCF
reporting period and 48 audit reports during the full      concurred and stated that corrective action is underway
year. OIG investigations under Goal 3 yielded 36           to address each issue. In related work, we are
indictments, 37 convictions, and about $2.8 million in     scheduled to perform the annual audits of the
monetary results during the reporting period and 84        Department and standalone agencies’ financial
indictments, 61 convictions, and about $4.8 million in     statements for FYs 2004 and 2005. (Audit of the FY
monetary results during the full year.                     2003 and 2002 USDA WCF Financial Statements, Audit
                                                           Report No. 50401-52-FM)

                                                           A Stronger IT Organizational Structure Would
                                                           Reduce RMA Vulnerabilities

                                                           The Risk Management Agency administers the Federal
                                                           Crop Insurance Corporation (FCIC) and oversees all
                                                           programs authorized under the Federal Crop Insurance
                                                           Act. RMA’s 2004 crop year liability exceeded $46 billion.
                                                           FCIC is a wholly owned Government corporation that
                                                           offers subsidized multiple-peril and revenue crop
                                                           insurance through a private delivery system by means
                                                           of insurance companies. Its 2004 crop year premium
                                                           subsidy and producer-paid premiums are $2.5 billion
                                                           and $1.6 billion, respectively. As of August 30, 2004,
                                                           insurance indemnities paid on the 2003 crop year were
                                                           $3.2 billion.


                                                                                                                 17
Our audit disclosed serious internal control weaknesses    procedures were not suitably designed or had not yet
in the overall management and organizational structure     been placed in operation at the time of our review.
for RMA’s IT security and operations. RMA’s IT
environment is highly vulnerable due, in part, to the      NITC had taken actions to ensure compliance with
overall control of IT operations by production managers,   federally mandated security requirements, but
which also resulted in material noncompliance with         continuing corrective actions are needed to resolve all
OMB and Presidential Decision Directives. Our              outstanding issues. During the year, NITC made
electronic vulnerability scans of RMA’s network            progress toward completing the certification and
revealed 306 high- and medium-risk vulnerabilities,        accreditations of its systems; however, the accreditation
insufficient system policy settings, and serious and       was not finalized until yearend. We also noted that NITC
recurring access control weaknesses, compounded by         needs to establish stronger oversight of its midrange
inadequate firewalls and intrusion detection devices.      environment to include an accurate inventory of all
Physical access control components were not in place       systems, and to ensure that system configurations are
to safeguard major computer systems and hardware.          maintained in accordance with departmental and
Overall, RMA managers did not adhere to the                National Institute of Standards and Technology
Department’s system development lifecycle                  guidelines. We continued to find weaknesses in NITC’s
methodology for software application development,          change control process, including changes that had
installation, and/or maintenance.                          occurred without proper documentation of approval and
                                                           testing.
We recommended that RMA provide sufficient
resources to its new Chief Information Officer (CIO) to    We recommended that NITC prepare a strategic plan
effectively oversee IT security and preclude undue         addressing the weaknesses we found in its midrange
influence by production managers. We also                  environment, and establish a second-party review over
recommended that RMA include the noted material            its change control process to ensure that its policies are
control weaknesses in its Federal Managers’ Financial      properly carried out. OCIO concurred with the findings
Integrity Act (FMFIA) report, take immediate action to     and recommendations in the audit report and stated that
eliminate the vulnerabilities noted, and establish         corrective action either has been taken or is underway
appropriate polices, procedures, and controls for the      to address each issue.
Agency’s IT operations. In addition, we recommended
that the RMA Administrator renegotiate and revise the      Employee Defrauds Federal Health Insurance
reimbursable agreement with FSA to reflect the planned     Program
changes in RMA’s IT organizational structure. We also
recommended that RMA obtain background                     This joint investigation with the OIG for the Office of
investigations for all IT contractor employees before      Personnel Management (OPM) involves the alleged
access to systems, hardware, and facilities is             submission of fraudulent health insurance claims
authorized. RMA officials have indicated that they plan    totaling approximately $70,000 to Blue Cross Blue
to take aggressive action by prioritizing the              Shield during 2000 and 2001 by an FSIS employee. The
recommendations and acting first on those that will        claims were for medical services allegedly rendered to
mitigate the FMFIA material internal control weakness.     the employee and his family in his native country
(Management and Security of IT Resources, Audit            overseas. A search of the employee’s residence in July
Report No. 05099-18-KC)                                    2003 yielded a large amount of evidence related to the
                                                           submission of false health insurance claims. He pled
IT Security Improvements Still Needed at USDA’s            guilty to mail fraud and was sentenced to 5 months of
Second Largest Data Center                                 imprisonment and 5 months of home detention, and was
                                                           ordered to pay a fine of $3,000 and restitution of
We conducted an audit of the Office of the Chief           $69,489 to Blue Cross Blue Shield. He also resigned.
Information Officer/National Information Technology        State charges are pending for fraudulent travel
Center’s (OCIO/NITC) internal control structure. While     vouchers, and the individual is being considered for
the Center has taken significant actions to mitigate the   charges of perjury before an Unemployment Insurance
weaknesses we identified during our prior annual audits,   Appeals Hearing. The Civil Division of the U.S.
this report contains a qualified opinion on the internal   Attorney’s Office has accepted the matter and has filed
control structure because certain control policies and     a civil complaint.

18
USDA Administrative Law Judge Pleads Guilty to                Former FS Employee Pleads Guilty in Government
Possession of Crack Cocaine                                   Purchase Card Fraud

In another employee corruption case, in January 2004          In June 2004, a former lead forestry technician pled
OIG and FBI agents received a tip from a cooperating          guilty in Federal court to submitting false claims. He had
witness that a USDA administrative law judge who              used a Government purchase card in 2002 and 2003 to
traveled to San Juan, Puerto Rico, in his official capacity   obtain approximately $22,000 in merchandise
to arbitrate administrative hearings would meet with a        (motorcycle, hunting items) and services (gasoline, cell
known drug user during his visits. The agents observed        phone charges, hotel bills). We seized various items
that the judge and companion, in a vehicle rented under       including a dirt bike; motorcycle parts, accessories, and
a Government contract, would drive to a known drug            clothing; and hunting equipment and hunting clothing.
location and conduct exchanges consistent with drug           The subject was placed on administrative leave pending
trafficking. The agents searched the judge’s vehicle and      final disciplinary action. Sentencing was pending at the
hotel room and seized approximately 31 vials full of          end of the reporting period.
crack cocaine and 46 empty vials containing residue of
crack cocaine. The judge pled guilty in U.S. District         Management Controls Over LEIMARS Timber Theft
Court to aiding and abetting, and possession of cocaine.      Reporting Need Improvement
He was sentenced to 3 years of probation and agreed to
resign. His companion also pled guilty and was                FS uses the Law Enforcement and Investigations
sentenced to 3 years of probation.                            Management Attainment Reporting System (LEIMARS),
                                                              a computerized database, to collect information on
Texas FSA Employee Embezzles FSA Program                      crimes and violations that occur on National Forest
Payments                                                      System lands, including thefts of timber. FS law
                                                              enforcement officers are required to record the tree
In July 2004, a former Texas FSA employee was                 count, volume, value, and species of stolen trees in
sentenced to serve 5 years of probation and 6 months          LEIMARS. However, for 34 of the 105 timber theft cases
of home detention, and was ordered to pay $32,622 in          we reviewed, LEIMARS contained no information on
restitution, after pleading guilty to embezzlement.           any of these elements, and only 1 case had all the
Between October 3, 2003, and February 17, 2004, the           required information. Only 38 attempts were made to
employee, a temporary program technician, embezzled           complete the specialized section for property and
$32,622 in producer payments by redirecting the               natural resource crimes such as timber theft, and FS
payments and depositing them into her personal bank           had no person or process in place to review and
account.                                                      validate the information. Consequently, FS lacks the
                                                              basic information to determine the scope and impact of
Former New Mexico FS Employee Sentenced in                    timber theft. We recommended that FS establish a
Government Travel Card Fraud                                  management control system to ensure the integrity of
                                                              LEIMARS information, and identify and correct
A former New Mexico FS employee was sentenced to 1            deficiencies. (Survey of FS Timber Theft Controls, Audit
day in jail, ordered to pay restitution, and placed on        Report No. 08601-2-Te)
supervised release for 3 years. The former employee
admitted to making more than $11,750 in unauthorized          Implementation of AREERA Needs Improvement
withdrawals and fraudulent credit card purchases using
a Government travel card. The monies were used to             The 1998 Agricultural Research, Extension, and
purchase crack cocaine.                                       Education Reform Act (AREERA) required 1862
                                                              institutions of higher education to spend the lesser of 25
                                                              percent of their formula funds (about $400 million
                                                              annually) on AREERA activities or twice the percentage
                                                              they had spent on such activities in FY 1997. The
                                                              Cooperative State Research, Education, and Extension
                                                              Service (CSREES), however, allowed 16 of 51
                                                              institutions to select inappropriate target percentages,
                                                              approved some incomplete plans of work, and released

                                                                                                                     19
some formula funds without approved plans of work. By           guidance or by other activities initiated by the
prematurely releasing more than $40 million to                  Department. USDA also agreed to revise the 2004
institutions, the Government incurred about $482,400 in         Annual Performance Plan to incorporate improved
additional interest costs. Further, 1862 institutions           performance measures developed for the 2005
reported not spending more than $14 million on required         performance budget, and continue to work to improve
AREERA activities, and 1890 institutions reported not           its performance measures and targets. In related work,
matching more than $16 million in formula funds.                we are scheduled to review the FS’ implementation of
However, because of ineffective controls, CSREES took           GPRA. (Implementation of GPRA in USDA, Audit
no action to correct the problems or recover the funds.         Report No. 50601-6-Ch)

CSREES officials concurred with our recommendations             FSA’s Contracting for the Disposal of Surplus
that it ensure that reductions in target percentages are        Tobacco Lacked Due Diligence
granted only when warranted, monitor land-grant
institutions’ annual reports to ensure expenditures of          In response to a Congressional request, we reviewed
formula funds are at the agreed-upon level, and ensure          the contract with a corporation for the disposal of
that formula funds are not distributed until institutions’      121,448 tons of surplus tobacco. FSA officials stated
plans of work meet standards. Further, CSREES                   that they relied on guidance contained in the Federal
officials will initiate actions to recover the portion of the   Acquisition Regulation, but the level of diligence was
$30 million in Federal funds confirmed not spent in             insufficient for us to conclude that FSA adequately
accordance with AREERA. We have accepted                        applied the guidance to safeguard the interests of the
management decisions for 15 of the 17                           Government, unnecessarily exposing it to potential
recommendations. (CSREES’ Implementation of                     losses.
AREERA, Audit Report No. 13001-3-Te)
                                                                FSA had not established the corporation’s financial
USDA Needs To Improve Coordination in Its                       ability to perform and a satisfactory record of
Performance Management System                                   performance. The corporation’s bid was less than one-
                                                                fourth that of the next lowest bidder determined by the
USDA has continued to make improvements to its                  Contracting Officer’s Technical Representative (COTR)
performance management system. For example, USDA                to be technically capable; yet even though the
revised its strategic plan in September 2002, began             corporation had no operational biomass processing
evaluating its programs using OMB’s Program                     facility, FSA deemed the bid to be reasonable. FSA
Assessment Rating Tool during the FY 2004 budget                ultimately canceled the contract for “convenience” after
process, and created a Budget and Performance                   the State of Ohio Environmental Protection Agency
Integration Board chaired by the Deputy Secretary. We           determined that the corporation’s installation permit did
found, however, that additional improvements were               not authorize it to store and burn tobacco. FSA already
needed to achieve quality and effective GPRA plans              had shipped more than 10,000 tons of tobacco and
and reports, particularly in the area of performance            cardboard containers to the corporation and paid more
measures and targets. Various USDA agencies’                    than $180,000. FSA ultimately paid to bury the
performance management processes and results                    remaining tobacco in landfills.
historically have been unreliable, and the Department’s
annual performance plans and reports exhibited a                FSA generally disagreed with our recommendations and
variety of deficiencies, as a result. In our opinion, half of   stated that the disposal methodology was chosen
the performance indicators were unclear, did not                according to acceptable, but not necessarily
measure progress toward achieving applicable                    documented, research techniques. FSA officials further
performance goals, or both. We noted additional                 stated that they believe adequate controls are in place
problems with target levels.                                    using the existing personnel and acquisition regulations.
                                                                In our view, the results of this contract provide
The Department agreed with our recommendations to               convincing evidence that FSA’s planning was
work to correct performance management deficiencies             inadequate. The contract files lacked documentation to
throughout the Department. All of the recommendations           support the efforts of the COTR in determining how best
have already been addressed either by incorporation in          to dispose of the tobacco, what analysis was used to



20
ensure the best value to the Government, or that the          determination, for APHIS or WS officials to consider
untried method of tobacco disposal would be effective.        whether any disciplinary actions are warranted. (WS
(Review of FSA’s Control Over Contracting for the             Aircraft Acquisition, Audit Report No. 33099-1-KC)
Disposal of Surplus Tobacco, Audit Report No.
03099-3-HQ)                                                   Competitive Sourcing Requirements Met in OMB
                                                              Circular No. A-76 Review
Commitment of Funding May Have Violated Federal
Appropriations Law                                            In response to a Congressional request, we evaluated
                                                              the Agricultural Research Service’s (ARS) competitive
Some Wildlife Services aircraft have been specially           sourcing of the Beltsville Agricultural Research Center’s
modified to hunt livestock predators. Prompted by a           (BARC) special police force. Of particular concern was
Congressional inquiry, we evaluated the financial             the appearance that the number of employees charged
arrangements under which an industry group purchased          against the in-house special police force bid was
an airplane later leased to WS for aerial hunting and         inflated for the purposes of the study. We concluded
concluded that WS actions may have been                       that ARS performed the commercial activities study of
inappropriate and made to facilitate the purchase.            the BARC special police force in accordance with the
                                                              provisions of OMB Circular No. A-76 (Performance of
OIG determined that WS officials obligated funds to pay       Commercial Activities). Further, nothing came to our
for modifications made to a plane in prior fiscal years, at   attention to question the agency’s decision to outsource
a time when WS did not have a legally binding                 the function. (Competitive Sourcing of the Beltsville
agreement with the aircraft repair company that owned         Agricultural Research Center Special Police Force,
the plane. WS did not have a valid contract with the          Audit Report No. 02002-1-Hy)
company to acquire either goods or services for the
Government. When the industry group ultimately                Improved Controls Needed Over Grant Expenditures
purchased the plane from the company, the purchase            at the Delta Regional Authority
price was discounted for the value of the modifications
paid for by WS and an engine WS provided. Therefore,          The Delta Regional Authority (DRA) is a Federal-State
WS may have violated Federal appropriations law by            partnership serving a 240-county/parish area in an
obligating Federal funds where, in our estimation, no         8-State region, designed to remedy severe and chronic
bona fide need existed. Federal law requires that             economic distress by stimulating economic
obligations be made for payment of expenses properly          development and fostering partnerships that will have a
incurred or for contracts properly made within the period     positive impact on the region’s economy. Of 13 grants
of appropriation availability. We concluded that the WS       reviewed totaling $2,103,150 in disbursements, we
executed these transactions simply to facilitate the          identified 3 with questionable costs totaling $357,332.
purchase of the aircraft by the industry group.               One grant reimbursed a grantee $300,000 for costs of
                                                              $247,000 incurred before the grant period started and
Since the determination as to whether a violation of          for an ineligible entity. This grantee then subgranted the
appropriations law has occurred is a legal question, we       remaining $53,000 to another entity without the
recommended that APHIS obtain a legal opinion from            knowledge and consent of DRA. For the second grant,
OGC. In its response to our report, APHIS officials did       we found that DRA reimbursed prohibited charges of
not generally dispute the presentation of facts and           $12,332. For the third grant, DRA provided the grantee
events that occurred. However, APHIS disagreed with           a 90-percent advance of grant funds totaling $45,000
OIG’s audit conclusions. APHIS agreed to seek a legal         without needed documentation.
opinion from OGC to determine what actions should be
taken.                                                        DRA was not monitoring reporting requirements or
                                                              grantee progress in achieving objectives and activities
The audit also disclosed concerns relating to APHIS’          set forth in the enabling legislation. As a result, 16
management of its aerial acquisition program and its          quarterly progress reports were late, 4 final reports due
procurement processes. OIG made numerous                      were not submitted, and progress reports did not always
recommendations to establish and/or strengthen                follow the prescribed format.
management controls and, based on OGC’s legal


                                                                                                                      21
We recommended that DRA develop an effective               FY 2004 MANAGEMENT CHALLENGES
means for controlling expended funds, develop policies     ADDRESSED UNDER GOAL 3
and procedures to monitor grants, and recover
questioned or unsupported costs paid to grantees, if       • Financial Management – Improvements Made
appropriate. It should also develop written policies and     but Additional Actions Still Needed
procedures to ensure grantees submit timely progress       • Information Technology (IT) Security – Much
and final reports, and implement sanctions to withhold       Accomplished, More Needed
payments to grantees delinquent with reports. (DRA –       • Civil Rights Complaints Processing Still a
FYs 2001-2003, Audit Report No. 62099-1-At)                  Concern at USDA
                                                           • Research Misconduct Policy Not Consistently
                                                             Implemented
                                                           • A Strong Internal Control Structure Is Paramount
                                                             to the Delivery of Forest Service Programs –
                                                             Agency-Specific Challenge




22
ONGOING AND PLANNED REVIEWS FOR GOAL 3

Financial management and accountability topics that    • public key infrastructure at OCFO/NFC,
will be covered in ongoing or planned reviews          • USDA application controls,
include:                                               • ARS application controls over the national
                                                         pathogen inventory,
• annual audits of the Department and standalone       • ARS security over IT resources,
  agencies’ financial statements for FYs 2004 and      • FNS – application review of store tracking and
  2005,                                                  redemption system II,
• agreed-upon procedures: retirement, health and       • e-Government security,
  life insurance, and headcount information            • controls over e-payments at OCFO/NFC,
  submitted to the Office of Personnel Management,     • USDA application controls for Web applications,
  FYs 2004 and 2005,                                     and
• improper payment/purchase card management            • followup on the Department’s physical critical
  system,                                                infrastructure protection program.
• FS internal controls,
• controls over final action on audit                  FS topics that will be covered in ongoing or planned
  recommendations,                                     reviews include:
• review of USDA’s acquisition and planning
  process,                                             • Capital Improvement Program,
• monitoring of USDA implementation of a cost          • review of management controls,
  accounting system,                                   • followup on recommendations made for FS’
• Export Credit Guarantee Program (GSM)                  maintenance backlog,
  guaranteed loan accounting system,                   • FS implementation of the Government
• separate reviews of FSA; RHS; Cooperative State        Performance and Results Act,
  Research, Education and Extension Service            • National Fire Plan firefighting contract crews, and
  (CSREES); NRCS; and USDA compliance with the         • implementation of the Healthy Forests Initiative.
  Improper Payments Information Act,
• survey of AMS contract competitive bidding           CSREES topics that will be covered in ongoing or
  practices,                                           planned reviews include controls over the National
• FY 2005 National Finance Center (NFC) IT             Research Initiative Competitive Grants Program.
  controls, and                                        GPRA topics that will be covered in ongoing or
• controls over performance-based contracts in fixed   planned reviews include FS’ implementation of
  service contracts.                                   GPRA.

IT security and management topics that will be         The findings and recommendations from these efforts
covered in ongoing or planned reviews include:         will be covered in future semiannual reports as the
                                                       relevant audits and investigations are completed.
• APHIS application controls for the import tracking
  system,




                                                                                                               23
    Summary of Audit Activities—April 2004-September 2004
Reports Issued .................................................................................................................................................     51
  Audits Performed by OIG ....................................................................................                39
  Evaluations Performed by OIG ...........................................................................                      1
  Audits Performed Under the Single Audit Act .....................................................                             2
  Audits Performed by Others ................................................................................                   9

Management Decisions Made
  Number of Reports ........................................................................................................................................ 41
  Number of Recommendations ....................................................................................................................... 334

Total Dollar Impact (Millions) .......................................................................................................................... $711.8
  Questioned/Unsupported Costs .......................................................................................... $ 9.4ab
     Recommended for Recovery ..........................................................................            $4.8
     Not Recommended for Recovery ...................................................................               $4.6
  Funds To Be Put to Better Use ............................................................................................ $702.4
a   These were the amounts the auditees agreed to at the time of management decision.
b   The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.




    Summary of Investigative Activities—April 2004-September 2004
Reports Issued ...................................................................................................................................................   220
Cases Opened ...................................................................................................................................................     206
Cases Closed .....................................................................................................................................................   241
Cases Referred for Prosecution .........................................................................................................................             139

Impact of Investigations
  Indictments .................................................................................................................................................... 152
  Convictions .................................................................................................................................................... 211a
  Searches ........................................................................................................................................................ 34
  Arrests ........................................................................................................................................................... 207

Total Dollar Impact (Millions) .......................................................................................................................... $233.0
  Recoveries/Collections ........................................................................................................ $ 4.3b
  Restitutions .......................................................................................................................... $191.9c
  Fines .................................................................................................................................... $ 24.9d
  Claims Established .............................................................................................................. $ 3.5e
  Cost Avoidance .................................................................................................................... $ 7.8f
  Administrative Penalties ....................................................................................................... $ 0.6g

Administrative Sanctions ................................................................................................................................ 193
  Employees ...........................................................................................................................  32
  Businesses/Persons ............................................................................................................       161
a
    Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
    therefore, the 211 convictions do not necessarily relate to the 152 indictments.
b
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
    Fines are court-ordered penalties.
e
    Claims established are agency demands for repayment of USDA benefits.
f
    Consists of loans or benefits not granted as the result of an OIG investigation.
g
    Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




24
Full FY 2004 Results in Key Categories


October 2003-September 2004
 Summary of Audit Activities
Reports Issued .................................................................................................................................................   97

Total Dollar Impact (Millions) .......................................................................................................................... $763.4
  Questioned/Unsupported Costs .......................................................................................... $ 15.2
  Funds To Be Put to Better Use ............................................................................................ $748.2



 Summary of Investigative Activities
Reports Issued ................................................................................................................................................. 425

Impact of Investigations
  Indictments .................................................................................................................................................... 370
  Convictions .................................................................................................................................................... 350

Total Dollar Impact (Millions) .......................................................................................................................... $292.9

Administrative Sanctions ................................................................................................................................ 302




                                                                                                                                                                         25
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings, which must be completed before the agency can act to complete management decisions.


 NEW SINCE LAST REPORTING PERIOD

                                                                                                        Amount With
                                                                                  Total Value             No Mgmt.
                                                                                  at Issuance             Decision
Agency              Date Issued             Title of Report                       (in dollars)           (in dollars)

FS                   01/26/04           1. FY 2003 FS Financial                             0                     0
                                           Statements (08401-3-FM)

FSA                  03/19/04           2. FSA Farm Programs Audit                   918,390                      0
                                           in a Louisiana Parish
                                           (03601-42-Te)

Multiagency          02/23/04           3. Homeland Security Issues                         0                     0
                                           for USDA Grain and
                                           Commodities Inventory (50099-13-KC)

                     03/04/04           4. Controls Over Plant Variety and                  0                     0
                                           Germplasm Storage (50601-6-Te)

                     03/08/04           5. Followup Review on the                           0                     0
                                           Security of Biohazardous
                                           Material at USDA Laboratories
                                           (50601-10-At)

                     03/24/04           6. Controls Over Chemicals                          0                     0
                                           and Radioactive Materials
                                           at USDA Facilities (50601-9-At)

RMA                  12/30/03           7. Review of Written Agreements            7,600,000                      0
                                           (05601-11-Te)

                     03/31/04           8. Indemnity Payments to Prune               386,772               171,879
                                           Producers In California –
                                           Producer D (05099-7-SF)*




26
 PREVIOUSLY REPORTED BUT NOT YET RESOLVED

These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but
for various reasons the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.
                                                                                                         Amount With
                                                                                   Total Value             No Mgmt.
                                                                                   at Issuance             Decision
Agency              Date Issued              Title of Report                       (in dollars)           (in dollars)

APHIS                 02/20/03            9. Safeguards To Prevent                           0                     0
                                             Entry of Prohibited Pests
                                             and Disease Into the
                                             United States (33601-3-Ch)

Civil Rights          09/30/98           10. Evaluation of CR Efforts To Reduce              0                     0
(CR)                                         Complaints Backlog (60801-1-HQ)

                      03/24/99           11. Evaluation of CR Management                     0                     0
                                             of Settlement Agreements
                                             (60801-2-HQ)

                      03/10/00           12. Office of CR Management of                      0                     0
                                             Employment Complaints
                                             (60801-3-HQ)

                      03/10/00           13. Status of Implementation of                     0                     0
                                             Recommendations Made in
                                             Prior Evaluations of Program
                                             Complaints (60801-4-HQ)

CSREES                08/06/02           14. Grants to National Center              1,246,161             1,246,161
                                             for Resources Innovation
                                             (13099-2-Te)

FNS                   05/11/01           15. NSLP Food Service                      3,572,137             3,572,137
                                             Management Companies
                                             (27601-12-KC)

                      09/06/01           16. NSLP – Food Service                    3,537,912             3,198,926
                                             Management Companies
                                             (27601-24-Ch)*

                      11/21/01           17. CACFP – Wildwood, Inc.                36,895,611            36,895,611
                                             Phase II (27010-6-KC)

                      03/29/02           18. NSLP – Chartwell’s Food                  307,711               307,711
                                             Service Management
                                             Company (27601-13-KC)

                                                                                                                       27
                                                                                   Amount With
                                                                    Total Value      No Mgmt.
                                                                    at Issuance      Decision
Agency        Date Issued       Title of Report                     (in dollars)    (in dollars)

               03/31/03     19. FSP – Employment and                 3,152,731              0
                                Training Program in
                                Tennessee (27601-12-At)

FSA            07/30/01     20. 1999 Crop Disaster Program             950,891       950,891
                                (03099-42-KC)

FSIS           06/21/00     21. Implementation of the HACCP                   0             0
                                System (24001-3-At)

               06/21/00     22. Imported Meat and Poultry                     0             0
                                Inspection Process
                                (24099-3-Hy)

               09/30/02     23. Overtime Controls                             0             0
                                (24099-4-At)

               09/30/03     24. Oversight of Production                       0             0
                                Process and Recall at
                                ConAgra Plant (Establishment 969)
                                (24601-2-KC)

Multiagency    03/31/99     25. Private Voluntary                   18,629,558     18,236,625
                                Organization Accountability
                                (50801-6-At)

               09/30/03     26. Implementation of Agricultural                0             0
                                Risk Protection Act (50099-12-KC)

               09/30/03     27. 2000 Crop Disaster Program              20,049         19,649
                                (50099-15-KC)

RBS            01/28/02     28. Lender Servicing of B&I              1,536,060      1,536,060
                                Guaranteed Loan
                                (34601-3-At)

               01/10/03     29. Lender Servicing of B&I              3,766,908      3,766,908
                                Guaranteed Loans
                                (34601-4-At)

               08/27/03     30. Rural Development                    9,145,549       224,951
                                Lender Servicing of B&I
                                Guaranteed Loans In
                                Georgia (34601-5-At)




28
                                                                           Amount With
                                                            Total Value      No Mgmt.
                                                            at Issuance      Decision
Agency   Date Issued      Title of Report                   (in dollars)    (in dollars)

          09/30/03     31. Rural Development                   818,121       220,009
                           Liquidation of B&I
                           Guaranteed Loan
                           (34601-8-SF)

          09/30/03     32. B&I Loan in Louisiana             5,585,136      1,382,301
                           (34099-5-Te)

RHS       01/08/99     33. RRH – Dujardin Property             195,694       195,694
                           Management, Inc. Everett,
                           WA (04801-5-SF)

          05/25/00     34. RRH – Nationwide Initiative       4,922,879      4,919,579
                           in Missouri – Lockwood
                           Management Co., St. Louis,
                           MO (04801-2-KC)

          09/28/01     35. RRH Program Insurance               596,665         79,442
                           Expenses Phase II
                           (04601-4-KC)

          06/26/03     36. RD RRH Program Tenant             7,781,635      3,337,243
                           Income Verification –
                           Gainesville, FL
                           (04004-3-At)

RMA       02/28/01     37. FY 2000 FCIC Financial                     0             0
                           Statements (05401-1-HQ)

          05/21/01     38. Review of Written                 1,565,730      1,565,730
                           Agreements (05002-1-Te)

          03/15/02     39. Monitoring of RMA’s                        0             0
                           Implementation of Manual 14
                           Reviews/Quality Control Review
                           System (05099-14-KC)

          09/30/02     40. Review of Large Insurance         6,998,779      6,998,779
                           Claims for Watermelon
                           (05601-9-Te)

          01/09/03     41. FY 2002 FCIC Financial                     0             0
                           Statements (05401-11-FM)




                                                                                        29
 AUDITS WITHOUT MANAGEMENT DECISION - NARRATIVE FOR NEW ENTRIES




1. FY 2003 FS Financial Statements (08401-3-FM),           wide effort to reduce the homeland security
   Issued January 26, 2004                                 vulnerabilities of USDA agricultural commodities and
                                                           commodity inventories. FSA, in general, indicated that
We have not reached management decision for 6 of the       action had been taken based on guidance provided by
report’s 28 recommendations. These recommendations         the USDA Homeland Security Office and agreed that
addressed improvements that FS needs to make in            additional action was warranted. However, appropriate
internal controls for its financial management system.     corrective action could not be properly identified or
FS needs to provide additional information or the          formulated until a risk assessment is conducted.
estimated completion dates for corrective actions, and
we are continuing to work with FS.                         4. Controls Over Plant Variety and Germplasm
                                                              Storage (50601-6-Te), Issued March 4, 2004
2. FSA Farm Programs Audit in a Louisiana Parish
   (03601-42-Te), Issued March 19, 2004                    To reach management decision, the Department needs
                                                           to provide a copy of an approved Departmental policy
An FSA county office committee chairperson                 for obtaining information regarding genetically
misrepresented farming interests and received              engineered organism accession entering National Plant
payments of $814,355. Another producer received            Germplasm System (NPGS) facilities along with ARS’
excessive benefits of $104,035 for the crop acreage        time-specific plan for implementing the
bases on land in which he had no interest. We              recommendations. The Department also needs to
recommended that the payments be recovered, that the       provide a copy of the document sent to the NPGS
Louisiana State FSA take administrative sanctions          facilities emphasizing interim security measures.
against the chairperson and correct crop acreage
bases, and that the county office update the farm          5. Followup Review on the Security of
program records to reflect current land ownership and         Biohazardous Material at USDA Laboratories
determine the proper division of the crop acreage             (50601-10-At), Issued March 8, 2004
bases. We also recommended appropriate
administrative action for the program technician who       To reach management decision, the Department needs
failed to update records after the change in farm          to develop and implement new Department-wide
ownership was reported to the county office. FSA           policies and procedures for chemical inventories that
concurred. The Agency is barred from reaching              specifically define hazardous chemicals; develop and
management decision on the last recommendation until       implement new Department-wide policies that instruct
conclusion of an administrative hearing, after which FSA   facilities to compile a secure, comprehensive inventory
needs to provide documentation that supports actions       of hazardous chemicals that they use and store;
taken as a result.                                         develop specific Department-wide policies and
                                                           procedures for routine monitoring and compliance
3. Homeland Security Issues for USDA Grain and             reviews at facilities housing hazardous chemicals;
   Commodities Inventory (50099-13 KC), Issued             develop and implement Department-wide policies and
   February 23, 2004                                       procedures specifying the minimum level of suitability
                                                           requirements and background investigations for
FSA generally concurred with our audit findings and        personnel with access to hazardous chemical and
recommendations but expressed concern that                 radioactive materials; and provide timeframes for
Departmental guidance was needed for a Department-         implementation.




30
6. Controls Over Chemicals and Radioactive               8. Indemnity Payments to Prune Producers In
   Materials at USDA Facilities (50601-9-At), Issued        California – Producer D (05099-7-SF), Issued
   March 24, 2004                                           March 31, 2004

We agree with the actions taken or planned by the        A California prune producer and one of its two partners
Department. To reach management decision, the            received unentitled crop indemnity payments for
Department needs to provide timeframes for               underreported acreage (1997 and 1998) when applying
implementation of those actions.                         for insurance and for underreported crop production
                                                         (1997 through 1999) when submitting loss claims. One
7. Review of Written Agreements (05601-11-Te),           insurance provider did not verify claimed losses by
   Issued December 30, 2003                              collecting final settlement sheets from the
                                                         packinghouses, and the other insurance provider did not
To reach management decision, RMA must provide an        verify one partner’s insurable share. RMA concurred
estimated date for the issuance of the revised Manual    with all the recommendations to pursue recovery of the
13 and a description of the procedure it will use to     questioned amounts, but cannot establish accounts
ensure that insurance companies are properly reporting   receivable until litigation is completed.
required written agreement information.




                                                                                                             31
 INDICTMENTS AND CONVICTIONS

Between April 1 and September 30, 2004, OIG                  Indictments and Convictions
completed 220 investigations. We referred 139 cases to       April 1 - September 30, 2004
Federal, State, and local prosecutors for their decision.
                                                             Agency            Indictments          Convictions*
During the reporting period, our investigations led to
152 indictments and 211 convictions. The period of time      AMS                      3                    3
to obtain court action on an indictment varies widely;       APHIS                   27                   13
therefore, the 211 convictions do not necessarily relate     ARS                      1                    1
to the 152 indictments. Fines, recoveries/collections,       ERS                      0                    1
restitutions, claims established, cost avoidance, and        FAS                      1                    4
administrative penalties resulting from our investigations   FNS                     44                  137
totaled about $233 million.                                  FS                       4                    3
                                                             FSA                     41                   21
The following is a breakdown, by agency, of indictments      FSIS                     8                    9
and convictions for the reporting period.                    GIPSA                    0                    2
                                                             NRCS                     6                    1
                                                             OALJ                     0                    2
                                                             OIG                      1                    1
                                                             RBS                      4                    0
                                                             RHS                      4                    5
                                                             RMA                      8                    8
                                                                                    ___                  ___
                                                             Totals                 152                  211
                                                             *This   category includes pretrial diversions.




32
 OFFICE OF INSPECTOR GENERAL HOTLINE

The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received 560
complaints, which included allegations of participant
fraud, employee misconduct, and mismanagement, as
well as opinions about USDA programs. Figure 1
displays the volume and type of the complaints we
received, and figure 2 displays the disposition of those
complaints.




Figure 1                                                   Figure 2

Hotline Complaints                                         Disposition of Complaints
April 1 to September 30, 2004                              April 1 to September 30, 2004
(Total = 560)
                                                                                  Referred to
                                                               Referred to      USDA Agencies
                                                             FNS for Tracking    for Response    Referred to
                                          Health/Safety                               263
                                                                   88                           State Agency
Reprisal                                       11
                                                                                                     10
  1
                   Participant
                     Fraud
                      377




Bribery                                                      Referred to
                                               Opinion/    USDA or Other
   1                                         Information                                          Referred to
                                                            Agencies for        Filed Without    OIG Audit or
           Waste/            Employee             86        Information-           Referral-
       Mismanagement         Misconduct                                                         Investigations
                                                           No Response           Insufficient     for Review
            127                 117                           Needed             Information          30
                                                                113                  105




                                                                                                           33
 FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
 FOR THE PERIOD APRIL 1 TO SEPTEMBER 30, 2004


Number of FOIA/PA Requests Received                 116

Number of FOIA/PA Requests Processed:               132

 Number Granted                             31
 Number Partially Granted                   22
 Number Not Granted                         79

Reasons for Denial:

 No Records Available                       19
 Referred to Other Agencies                 10
 Requests Denied in Full (Exemption 7A)     10
 Request Withdrawn                          19
 Fee-Related                                 1
 Not a Proper FOIA Request                   4
 Not an Agency Record                        1
 Duplicate Request                           2
 Other                                      13

Requests for OIG Reports From Congress
and Other Government Agencies

 Received                                   11
 Processed                                  11

Appeals Processed                                     3

 Appeals Completely Upheld                    0
 Appeals Partially Reversed                   1
 Appeals Completely Reversed                  0
 Appeals Requests Withdrawn                   0

Number of OIG Reports/Documents                      22
Released in Response to Requests

NOTE: A request may involve more than one report.

During this 6-month period, 48 audit reports were
posted to the Internet at the OIG Web site:
www.usda.gov/oig.




34
Appendix I


                                        INVENTORY OF AUDIT REPORTS
                                     WITH QUESTIONED COSTS AND LOANS
                                  FROM APRIL 1 THROUGH SEPTEMBER 30, 2004


                                                                             DOLLAR VALUES

                                                              QUESTIONED             UNSUPPORTED a
                                                  NUMBER    COSTS AND LOANS         COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                            33       133,107,404              83,593,713
   DECISION HAD BEEN MADE
   BY APRIL 1, 2004

B. WHICH WERE ISSUED DURING                           13        35,678,815              30,517,873
   THIS REPORTING PERIOD

      TOTALS                                          46      $168,786,219            $114,111,586

C. FOR WHICH A MANAGEMENT                             14
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

      (1) DOLLAR VALUE OF
          DISALLOWED COSTS

         RECOMMENDED FOR RECOVERY                               $4,798,404                $24,949

         NOT RECOMMENDED FOR RECOVERY                           $4,558,754                     $0

      (2) DOLLAR VALUE OF                                      $19,220,242             $17,301,447
          COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                            32      $142,748,996             $96,785,190
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

      REPORTS FOR WHICH NO                            22      $110,304,898             $66,290,156
      MANAGEMENT DECISION WAS
      MADE WITHIN 6 MONTHS
      OF ISSUANCE

a
    Unsupported values are included in questioned values.




                                                                                                      35
Appendix II


                               INVENTORY OF AUDIT REPORTS
                   WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                          FROM APRIL 1 THROUGH SEPTEMBER 30, 2004


                                      NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT              11          $715,516,429
   DECISION HAD BEEN MADE
   BY APRIL 1, 2004

B. WHICH WERE ISSUED DURING              2             $989,155
   THE REPORTING PERIOD

     TOTALS                             13          $716,505,584

C. FOR WHICH A MANAGEMENT                6
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

     (1) DOLLAR VALUE OF                            $702,408,708
         DISALLOWED COSTS

     (2) DOLLAR VALUE OF                                $74,366
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT               7           $14,022,510
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

     REPORTS FOR WHICH NO                5           $13,033,355
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE




36
Appendix III


                                  SUMMARY OF AUDIT REPORTS RELEASED
                                FROM APRIL 1 THROUGH SEPTEMBER 30, 2004

DURING THE 6-MONTH PERIOD FROM APRIL 1 THROUGH SEPTEMBER 30, 2004, THE OFFICE OF
INSPECTOR GENERAL ISSUED 51 AUDIT REPORTS, INCLUDING 9 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                           QUESTIONED    UNSUPPORTEDa    FUNDS BE
                                                 AUDITS      COSTS          COSTS         PUT TO
AGENCY                                          RELEASED   AND LOANS      AND LOANS     BETTER USE

AGRICULTURAL RESEARCH SERVICE          2
ANIMAL AND PLANT HEALTH                3                      $25,208
  INSPECTION SERVICE
CHIEF INFORMATION OFFICER              1
COOPERATIVE STATE RESEARCH, EDUCATION
   AND EXTENSION SERVICE               1                   $30,495,034    $30,495,034     $482,400
DELTA REGIONAL AUTHORITY               1                      $357,332
FARM SERVICE AGENCY                    6                       $58,884
FOOD AND NUTRITION SERVICE            10                    $4,161,438                    $506,755
FOOD SAFETY AND INSPECTION SERVICE     4
FOREST SERVICE                         2
MULTIAGENCY                            5
OFFICE OF THE CHIEF FINANCIAL OFFICER  1
OFFICE OF PROCUREMENT AND
  PROPERTY MANAGEMENT                  5
RISK MANAGEMENT AGENCY                 4                     $394,080
RURAL BUSINESS-COOPERATIVE SERVICE     2                      $22,839        $22,839
RURAL HOUSING SERVICE                  4                     $164,000


    TOTALS                                          51     $35,678,815    $30,517,873     $989,155


    TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                           45
      MULTIAGENCY AUDIT                              5
      SINGLE AGENCY EVALUATION                       1
      MULTIAGENCY EVALUATION                         0

    TOTAL RELEASED NATIONWIDE                       51

    TOTAL COMPLETED UNDER CONTRACT b                 9

    TOTAL SINGLE AUDIT ISSUED c                      2

a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
  Indicates audits completed as Single Audit


                                                                                         — Continued

                                                                                                     37
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM APRIL 1 THROUGH SEPTEMBER 30, 2004

                                                                     QUESTIONED    UNSUPPORTED     FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS         PUT TO
RELEASE DATE     TITLE                                               AND LOANS      AND LOANS     BETTER USE


AGRICULTURAL RESEARCH SERVICE

020020001HY    PRIVATIZATION OF THE BELTSVILLE
2004/06/30     AGRICULTURAL RESEARCH CENTER SPECIAL
               POLICE FORCE
020170001HQ    DCAA AUDIT OF STATE RESEARCH CENTER
2004/09/28     FOR APPLIED METHODOLOGY (SRCAM) FUNDED
               BY ARS

TOTAL: AGRICULTURAL RESEARCH SERVICE                            2


ANIMAL AND PLANT HEALTH INSPECTION SERVICE

330010005HY    APHIS WILDLIFE SERVICES CONTROLS OVER
2004/07/21     HAZARDOUS MATERIALS INVENTORY
330990001KC    WILDLIFE SERVICES - AERIAL ACQUISITION                    $25,208
2004/09/30     PROCEDURES
336010001AT    SECURITY OVER APHIS OWNED AND LEASED
2004/09/14     AIRCRAFT

TOTAL: ANIMAL AND PLANT HEALTH INSPECTION SERVICE               3        $25,208

CHIEF INFORMATION OFFICER

885010001FM    NATIONAL INFORMATION TECHNOLOGY CENTER
2004/09/22     (NITC) GENERAL CONTROLS REVIEW – FY 2004

TOTAL: CHIEF INFORMATION OFFICER                                1

COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE

130010003TE    IMPLEMENTATION OF AREERA                              $30,495,034   $30,495,034       $482,400
2004/08/16
TOTAL:         COOPERATIVE STATE RESEARCH, EDUCATION            1    $30,495,034   $30,495,034       $482,400
               AND EXTENSION SERVICE

DELTA REGIONAL AUTHORITY

620990001AT    SURVEY OF DELTA REGIONAL AUTHORITY                       $357,332
2004/09/10

TOTAL: DELTA REGIONAL AUTHORITY                                 1       $357,332

FARM SERVICE AGENCY

030990003HQ    CONTRACT FOR DESTRUCTION OF SURPLUS
2004/08/18     TOBACCO
030990165AT    FSA DISPOSITION OF FORECLOSED
2004/07/09     PROPERTIES IN PUERTO RICO
030990180TE    FEDERAL ASSISTANCE GRANTS TO PRODUCERS                    $54,174
2004/09/30     ALONG THE RIO GRANDE IN TEXAS
036010011CH    CONTROLS OVER ELIGIBILITY FOR SUGAR
2004/07/26     BEET PAYMENTS
036010012SF    FSA APPLE MARKET LOSS ASSISTANCE                           $4,710
2004/06/04     PAYMENT PROGRAM
038010006KC    EVALUATION OF FSA/CCC WHEAT SALES IN
2004/09/30     CALENDAR YEAR 2002

TOTAL: FARM SERVICE AGENCY                                      6        $58,884




                                                                                                 – – Continued

38
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM APRIL 1 THROUGH SEPTEMBER 30, 2004

                                                                     QUESTIONED    UNSUPPORTED     FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS         PUT TO
RELEASE DATE       TITLE                                             AND LOANS      AND LOANS     BETTER USE


FOOD AND NUTRITION SERVICE

270020001AT      FNS VENDOR SANCTION POLICIES                         $2,343,443
2004/07/15
270100017CH      NSLP - MEAL COUNTS IN CHICAGO SFA                      $719,913                     $506,755
2004/09/29
270100022KC      NATIONAL SCHOOL LUNCH PROGRAM,                            $694
2004/09/30       LIBERAL, KS
270100031HY      PHILADELPHIA NSLP COMPUTER                             $867,424
2004/06/25       ATTENDANCE/MEAL CLAIM ANALYSIS
270990031SF      SUMMER FOOD PROGRAM - STATE OF NEVADA                  $229,964
2004/08/24
270990065HY      CONTINUED MONITORING OF EBT OPERATIONS -
2004/05/21       NEW JERSEY
274010028HY      AUDIT OF FNS PURCHASE CARD OPERATIONS
2004/05/21
276010011SF      FNS CONTROLS OVER USDA DONATED
2004/08/06       COMMODITIES
276010032CH      FNS COMPLIANCE WITH IMPROPER PAYMENTS
2004/09/28       REPORTING REQUIREMENTS
276010033CH      CONTROLS OVER USDA-DONATED COMMODITIES
2004/09/30

TOTAL: FOOD & NUTRITION SERV                                   10     $4,161,438                     $506,755

FOOD SAFETY AND INSPECTION SERVICE

240010004AT      FOOD SAFETY INITIATIVE FOLLOWUP
2004/09/13
246010002HY    FSIS OVERSIGHT OF THE LISTERIA
2004/06/09     OUTBREAK IN THE NORTHEAST U.S.
246010003CH    REVIEW OF FOOD SAFETY INFORMATION
2004/09/30     SYSTEMS
246010003HY    FSIS EFFECTIVENESS CHECKS FOR THE
2004/06/29     PILGRIM’S PRIDE RECALL OF READY-TO-EAT
               POULTRY PRODUCTS
TOTAL: FOOD SAFETY AND INSPECTION SERVICE                       4

FOREST SERVICE

086010002TE      SURVEY OF FOREST SERVICE TIMBER THEFT
2004/09/27       CONTROLS
086010038SF      FS FIREFIGHTING SAFETY PROGRAM
2004/09/23

TOTAL: FOREST SERVICE                                           2

MULTIAGENCY

500220007TE      SINGLE AUDIT MANAGEMENT - NEW MEXICO
2004/04/15
500220008TE      BOLL WEEVIL ERADICTION FOUNDATION
2004/06/10
504010052FM      MONITORING THE AUDIT OF FY 2003 WCF
2004/09/21       FINANCIAL STATEMENTS
506010006CH      DEPARTMENT-WIDE GPRA PLANNING AND
2004/09/17       REPORTING
506010009KC      PHASE I - REVIEW OF BSE SURVEILLANCE
2004/08/18       PROGRAM

TOTAL: MULTIAGENCY                                              5




                                                                                                 – – Continued

                                                                                                           39
                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     FROM APRIL 1 THROUGH SEPTEMBER 30, 2004

                                                                    QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                          COSTS          COSTS        PUT TO
RELEASE DATE      TITLE                                             AND LOANS      AND LOANS    BETTER USE


OFFICE OF THE CHIEF FINANCIAL OFFICER

114010021FM    AGREED UPON PROCEDURES: RETIREMENT,
2004/09/30     HEALTH AND LIFE INSURANCE, AND
               HEADCOUNT INFORMATION SUBMITTED TO OPM

TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER                   1

OFFICE OF PROCUREMENT AND PROPERTY MANAGEMENT

890170001HQ    DCAA AUDIT OF FERGUSON ENGINEERING,
2004/08/03     LL. C., SUBCONTRACTOR OF SBA/SYSKA
890170002HQ    DCAA AUDIT OF HINMAN CONSULTING
2004/08/11     ENGINEERS, SUBCONTRACTOR OF SBA/SYSKA
890170003HQ    DCAA AUDIT OF HELLER AND METZGER,
2004/09/24     SUBCONTRACTOR OF SBA/SYSKA
890170004HQ    DCAA AUDIT OF POLYSONICS CORPORATION,
2004/09/24     SUBCONTRACTOR OF SBA/SYSKA
890170005HQ    DCAA AUDIT OF VETRAN ENTERPRISES, LTD,
2004/09/04     SUBCONTRACTOR OF SBA/SYSKA

TOTAL: OFFICE OF PROCUREMENT AND PROPERTY MANAGEMENT           5

RISK MANAGEMENT AGENCY

050170001HQ     DCAA AUDIT OF AGRILOGIC TRAVEL COST
2004/05/05
050170002HQ     DCAA AUDIT OF AGRILOGIC TERMINATION
2004/05/14      SETTLEMENT PROPOSAL TO RMA
050990018KC     MANAGEMENT AND SECURITY OF RMA
2004/06/01      TECHNOLOGY RESOURCES
050990025AT     CROP INSURANCE ACTUAL PRODUCTION HISTORY               $394,080
2004/05/21
TOTAL: RISK MANAGEMENT AGENCY                                  4       $394,080

RURAL BUSINESS-COOPERATIVE SERVICE

340990001HY    SURVEY OF THE RURAL BUSINESS                             $22,839      $22,839
2004/09/30     ENTERPRISE AND TELEVISION
               DEMONSTRATION GRANT PROGRAM
346010003KC    RBS VALUE ADDED AGRICULTURAL PRODUCT
2004/04/23     MARKET DEVELOPMENT GRANTS (VADG)

TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                      2        $22,839      $22,839

RURAL HOUSING SERVICE

040040004AT    LOCAL GOVERNMENTS’ MANAGEMENT OF MFH
2004/07/15     PROJECTS IN NORTH CAROLINA
040160001CH    RURAL RENTAL HOUSING PROJECT MANAGEMENT
2004/09/30
040990143CH    AUDIT OF LITTLE EGYPT PROJECT                           $164,000
2004/09/30     OPERATIONS, CAIRO, IL
046010009CH    ACCURACY OF SINGLE FAMILY HOUSING
2004/06/30     BORROWER ACCOUNTS

TOTAL: RURAL HOUSING SERVICE                                   4       $164,000


GRAND TOTAL:                                                  51    $35,678,815   $30,517,873      $989,155




40
Abbreviations of Organizations
AMS      Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
ARS      Agricultural Research Service
BARC     Beltsville Agricultural Research Center
CCC      Commodity Credit Corporation
CR       Civil Rights
CSREES   Cooperative State Research, Education, and Extension Service
DRA      Delta Regional Authority
ERS      Economic Research Service
FAS      Foreign Agricultural Service
FBI      Federal Bureau of Investigation
FCIC     Federal Crop Insurance Corporation
FNS      Food and Nutrition Service
FS       Forest Service
FSA      Farm Service Agency
FSIS     Food Safety and Inspection Service
GAO      U.S. Government Accountability Office
GIPSA    Grain Inspection, Packers and Stockyards Administration
JTTF     Joint Terrorism Task Force
NFC      National Finance Center
NITC     National Information Technology Center
NRCS     Natural Resources Conservation Service
OALJ     Office of Administrative Law Judges
OCFO     Office of the Chief Financial Officer
OCIO     Office of the Chief Information Officer
OGC      Office of the General Counsel
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPM      Office of Personnel Management
PPQ      Plant Protection and Quarantine
RBS      Rural Business-Cooperative Service
RHS      Rural Housing Service
RMA      Risk Management Agency
RUS      Rural Utilities Service
TDA      Texas Department of Agriculture
USDA     U.S. Department of Agriculture
WS       Wildlife Services
U.S. DEPARTMENT OF AGRICULTURE
OFFICE OF INSPECTOR GENERAL
STOP 2303
1400 INDEPENDENCE AVE., SW
WASHINGTON, DC 20250-2303




                                 www.usda.gov/oig
